<html>
<title> - THE TREATMENT OF RELIGIOUS MINORITIES IN WESTERN EUROPE</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]





        THE TREATMENT OF RELIGIOUS MINORITIES IN WESTERN EUROPE

=======================================================================

                                HEARING

                               BEFORE THE

                              COMMITTEE ON
                        INTERNATIONAL RELATIONS
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS

                             SECOND SESSION

                               __________

                             JUNE 14, 2000

                               __________

                           Serial No. 106-165

                               __________

    Printed for the use of the Committee on International Relations


        Available via the World Wide Web: http://www.house.gov/
                  international<INF>--</INF>relations


                               __________

                    U.S. GOVERNMENT PRINTING OFFICE
68-022                     WASHINGTON : 2000

                                 ______


                  COMMITTEE ON INTERNATIONAL RELATIONS

                 BENJAMIN A. GILMAN, New York, Chairman
WILLIAM F. GOODLING, Pennsylvania    SAM GEJDENSON, Connecticut
JAMES A. LEACH, Iowa                 TOM LANTOS, California
HENRY J. HYDE, Illinois              HOWARD L. BERMAN, California
DOUG BEREUTER, Nebraska              GARY L. ACKERMAN, New York
CHRISTOPHER H. SMITH, New Jersey     ENI F.H. FALEOMAVAEGA, American 
DAN BURTON, Indiana                      Samoa
ELTON GALLEGLY, California           MATTHEW G. MARTINEZ, California
ILEANA ROS-LEHTINEN, Florida         DONALD M. PAYNE, New Jersey
CASS BALLENGER, North Carolina       ROBERT MENENDEZ, New Jersey
DANA ROHRABACHER, California         SHERROD BROWN, Ohio
DONALD A. MANZULLO, Illinois         CYNTHIA A. McKINNEY, Georgia
EDWARD R. ROYCE, California          ALCEE L. HASTINGS, Florida
PETER T. KING, New York              PAT DANNER, Missouri
STEVE CHABOT, Ohio                   EARL F. HILLIARD, Alabama
MARSHALL ``MARK'' SANFORD, South     BRAD SHERMAN, California
    Carolina                         ROBERT WEXLER, Florida
MATT SALMON, Arizona                 STEVEN R. ROTHMAN, New Jersey
AMO HOUGHTON, New York               JIM DAVIS, Florida
TOM CAMPBELL, California             EARL POMEROY, North Dakota
JOHN M. McHUGH, New York             WILLIAM D. DELAHUNT, Massachusetts
KEVIN BRADY, Texas                   GREGORY W. MEEKS, New York
RICHARD BURR, North Carolina         BARBARA LEE, California
PAUL E. GILLMOR, Ohio                JOSEPH CROWLEY, New York
GEORGE RADANOVICH, California        JOSEPH M. HOEFFEL, Pennsylvania
JOHN COOKSEY, Louisiana
THOMAS G. TANCREDO, Colorado
                    Richard J. Garon, Chief of Staff
          Kathleen Bertelsen Moazed, Democratic Chief of Staff
     Hillel Weinberg, Senior Professional Staff Member and Counsel
                   Colette L. Bottin, Staff Associate


                            C O N T E N T S

                              ----------                              

                               WITNESSES

                                                                   Page

The Honorable Robert A. Seiple, Ambassador-at-Large for 
  International Religious Freedom, U.S. Department of State......     6
T. Jeremy Gunn, J.D., Ph.D., Guest Scholar, U.S. Institute of 
  Peace..........................................................    22
The Reverend N.J. L'Heureux, Jr., Executive Director, Queens 
  Federation of Churches.........................................    26
Philip Brumley, Esq., General Counsel, Jehovah's Witnesses.......    28
The Reverend Robert Hunt, Pastor, English Speaking United 
  Methodist Church of Austria....................................31, 37
Craig Jensen, Chairman and CEO, Executive Software...............    32
Catherine Bell, Actress..........................................    34

                                APPENDIX

Prepared statements:

The Honorable Robert A. Seiple...................................    50
T. Jeremy Gunn, J.D., Ph.D.......................................    55
The Reverend N.J. L'Heureux, Jr..................................    70
Philip Brumley, Esq..............................................   112
The Reverend Robert Hunt.........................................   120
Craig Jensen.....................................................   122
Catherine Bell...................................................   130

Statements submitted for the record:

Letter and statement from His Excellency Peter Moser, Ambassador 
  of Austria.....................................................   137
Statement of His Excellency Jurgen Chrobog, Ambassador of Germany   140
Statement of Armando Corea.......................................   142

Other material submitted for the record:

Documentation of German sales lost due to discriminatory 
  procurement practices (provided by Mr. Jensen).................   147

 
        THE TREATMENT OF RELIGIOUS MINORITIES IN WESTERN EUROPE

                              ----------                              


                        WEDNESDAY, JUNE 14, 2000

                          House of Representatives,
                      Committee on International Relations,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:30 a.m. in 
room 2172, Rayburn House Office Building, Hon. Benjamin A. 
Gilman (Chairman of the Committee) presiding.
    Chairman Gilman. The Committee will come to order.
    The Committee on International Relations meets in open 
session today to take testimony on the topic of the treatment 
of religious minorities in Western Europe. We do so as part of 
the Full Committee's geographic responsibility for Europe.
    Today's hearing allows us to turn our attention to a 
problem that has troubled many Americans who respect and value 
the nations of Western Europe, countries who are, without 
doubt, friends of the United States and places where, in 
general, freedom flourishes.
    The ``blind spot'' that some of those countries seem to 
have is their attitude toward religious minorities. As 
Ambassador Felix Rohatyn has written with respect to France, 
``Recent actions by its government vis-a-vis sects raise 
questions about intolerance toward religious minorities and 
contravene France's human rights commitments, although it is a 
country with a long tradition of religious freedom and the rule 
of law.'' That was in an April 12, 1999, letter to Congressman 
Smith of New Jersey.
    I would like to point out that the purpose of this hearing 
is not to support the religious doctrines or other activities 
of religious minorities active in Western Europe. However, we 
are called on not only to protect the rights of those we like, 
but of those with whom we may disagree as well.
    I have put on the record repeatedly, for example, my 
concern about the use, over the years, of Nazi-era imagery by 
supporters of Scientology in their effort to make their points 
about German policy. But I am also here to say we must defend 
their human rights.
    Of course, holding or expressing a religious belief or 
worshiping in public and private as one may please is not, as 
such, forbidden by law in Western Europe. In practice, however, 
expressing a minority religious belief often leads to 
discrimination--the loss of a job, of educational 
opportunities, of the right to gain custody of one's own child 
or to be a foster parent--which seriously burdens one's 
exercise of freedom of religion.
    Some European governments discriminate among religions, 
giving some favors, such as financial aid or simply the right 
of clergy of that religion to visit sick parishioners, while 
withholding these privileges from others.
    Moreover, religious discrimination by private parties is 
far from universally discouraged. It is encouraged in some 
cases, for example, by the compilation and publication by 
governments of lists of sects--although encouraging religious 
tolerance is an international human rights obligation.
    Such problems are complained of especially frequently and 
vociferously with respect to Austria, Belgium, France and 
Germany. It is frankly difficult to understand how our friends 
in those countries can say they have freedom of religion, given 
the burdens on the free exercise of religion I have mentioned 
and which will be described a little later on today.
    The Committee's attention has been drawn to this issue for 
several reasons: First, the practices to be discussed appear to 
be in contravention of internationally accepted human rights 
standards and seem to be leading to an atmosphere of religious 
intolerance.
    Second, Americans abroad who wish to evangelize or merely 
to practice their religion or professions, or to engage in 
business, face discriminatory treatment on the basis of their 
religions.
    Next, emerging democracies in Eastern Europe may copy the 
bad examples that are being set by some Western European 
countries--and China uses Western Europe to justify its brutal 
crackdown on the Falun Gong.
    And last, the growth of political extremism on the left and 
on the right in some of the nations where religious 
discrimination appears to be on the rise to questions of 
whether there are links between such discrimination and those 
political trends.
    Today, our Committee will first take testimony from our 
Ambassador-at-Large for Religious Freedom, Robert Seiple.
    In the second panel, it will hear from an experienced 
writer and observer of religious freedom issues who has worked 
in government, Mr. Jeremy Gunn; from a Methodist minister in 
Queens, New York, who has been active in the Religious Liberty 
Committee of the National Council of Churches, the Reverend 
``Skip'' L'Heureux, Jr.; and from members of religious 
minorities working in Europe or who are involved in helping 
coreligionists there, Philip Brumley, General Counsel of 
Jehovah's Witnesses, and the Reverend Robert A. Hunt of the 
English-speaking Methodist congregation in Vienna, Austria; 
from an American businessman, who is a Scientologist, who will 
testify that his business is being threatened by a religiously 
based boycott, Mr. Craig Jensen; and from an American actress, 
Ms. Catherine Bell, star of the television show JAG, also a 
Scientologist, who will discuss the special problems faced by 
members of her church in Europe, particularly in Germany.
    I regret to announce that Mr. Chick Corea who was invited 
to testify is unable to be with us today due to prior 
engagements.
    This is not a hearing about the merit or lack of merit of 
one or another religious group. It is about the practices of 
certain nations with respect to some of those groups. 
Accordingly, the Ambassadors of Austria, Germany and France 
have been invited to appear as well. The German ambassador and 
the Austrian ambassador have each submitted a useful and 
interesting statement. I would ask that my colleagues pay close 
attention to those statements. I regret that the French embassy 
has chosen not to participate in this hearing in any manner.
    Without objection, the submissions of the German and 
Austrian ambassadors, along with the prepared remarks of 
today's witnesses, as well as those of Mr. Corea and 
reasonable-length additional statements and background 
materials, at the discretion of the Chair, will be entered into 
the record.
    I now call on our Ranking Minority Member, the gentleman 
from Connecticut, Mr. Gejdenson.
    Mr. Gejdenson. Thank you, Mr. Chairman.
    One thing that comes to mind as I look at the years that we 
have had hearings on this issue is that maybe a solution would 
be if our European colleagues followed our model of separation 
of church and state. Because even if it is not explicitly 
discussed, there seems to be a strong undercurrent that the 
populace of these countries are uneasy about subsidizing, 
providing economic support and other benefits to religions that 
they are simply not accustomed to or that don't represent a 
large portion of their population; and that may be an important 
lesson for people in this country who have consistently tried 
to degrade and remove the separation of church and state, that 
we would find ourselves in a similar position.
    Populations often find it difficult to accept new 
philosophies and new religions, and it becomes particularly 
problematic when the general taxpayers are then asked to 
subsidize these new religions by funding religious schools, by 
funding other activities, direct payments to these new 
religions. So maybe our European brethren could remove some of 
their problems with the various religions that they seem to 
have difficulty with if they looked to our model more of 
establishing a separation between the elected government and 
the beliefs that people choose.
    I think it is important to make sure that we don't simply 
highlight newer religions and newer philosophies and thereby 
put them in a separate category. It should be the standards of 
behavior that we judge, not the newness of the religion; and 
obviously governments that take new religions or new beliefs 
and label them as sects and cults, I think undermine an attempt 
to have a society that respects varying beliefs.
    I believe these countries ought to open up a more 
transparent dialogue. They need to announce and enunciate 
principles of tolerance for their society, and they could go a 
long way to do away with some of the problems in some of the 
finest democracies in the world and our closest allies.
    For me, it is important to give every belief an opportunity 
to express itself and to make sure that a dominant religion 
doesn't in some way try to prevent other religions from 
competing for parishioners.
    Thank you, Mr. Chairman.
    Chairman Gilman. Are any other Members seeking recognition? 
Thank you, Mr. Gejdenson.
    Mr. Salmon.
    Mr. Salmon. Thank you very much, Mr. Chairman. It is 
interesting, just a couple of weeks ago, we had a debate on the 
House floor about NTR for China, and numerous Members arose to 
denounce the practices in China of impingement on religious 
freedom, but yet a lot of the same Members expressed hesitance 
about denouncing the suppression of religious freedom in some 
of the allied countries that we have worked closely with since 
World War II. I find that quite interesting.
    I have a different belief. I think that we ought to be able 
to be even more candid with those who are considered to be our 
allies, and I frankly am very, very concerned because I see a 
pattern.
    I have been working on the Helsinki Commission for the last 
6 years that I have been in Congress; and I have been able to 
go to those annual OSCE meetings, and every year these issues 
come up. And I find the response, particularly from the 
European Union, very, very troubling when we bring these issues 
up.
    Last year, we brought up a resolution to denounce some of 
the practices in Europe toward religious minorities and the 
creation of these sect monitoring offices in several offices in 
Europe. We basically got poured in a bottle. I think that we 
need to be a little bit more vocal. I think that the Congress 
needs to take definitive action to declare that here in this 
country we value the right to be able to believe according to 
the dictates of one's own conscience. It is a problem.
    It has been a problem in Russia. You might recall just a 
couple of years ago the Duma had a vote honoring and sustaining 
only certain religions.
    I might remind everybody here on this Committee that every 
religion started out as a religious minority, even the 
Christian religion, to which I belong. You might recall that 
when they started out, they had their bumps in the road. A few 
of them got fed to the lions. They had problems, as well, and 
problems being understood by those who believed a different 
way.
    But this religious intolerance in Europe is very, very 
troubling and some of the countries that are really the worst 
actors--Germany, France, Belgium, Austria--we need to take, I 
think, a definitive stand here in these halls to tell them that 
that is not acceptable, and that to have a good and solid 
relationship with the United States, they need to value the 
same things that we value, and that is the freedom of religious 
expression, the freedom of belief.
    I would like to cite some examples because this isn't just 
a lot of empty rhetoric. The most recent international Helsinki 
Federation report mentions that religious minorities in Belgium 
have been subjected to various forms of harassment and other 
human rights violations such as slander, anonymous threats, 
loss of jobs, bomb threats and denial of room rental for 
religious ceremonies.
    Patrick Belton, a businessman in France, runs a company 
that offers training and management advice. When government 
officials learned that he was a Scientologist, they accused him 
of transmitting client files to his church. Consequently, he 
lost several contracts with an estimated loss of several 
million French francs.
    In 1999, the U.S. Department of State annual report on 
international religious freedom stated that the conservative 
Austrian People's Party formally accepted the decision that 
party membership is incompatible with membership in a sect, and 
they decide what is a sect and what is a religion. This policy 
led to the resignation of a local party official.
    I really believe that this hearing is timely. I thank the 
Chairman for inviting the various people to testify before us, 
but after all is said and done and we hear the testimony, what 
are we prepared to do? Are we going to just sit and listen or 
are we going to stand up and be counted?
    I think we have an opportunity to make a difference and to 
stand for the most basic value that we hold dear in America 
and, really, the fundamental that began this country over 200 
years ago, and that is the right to believe according to the 
dictates of one's conscience without interference from 
government.
    Thank you very much. I yield back the balance of my time.
    Chairman Gilman. Thank you.
    I would like to note to the audience that we don't permit 
demonstrations during the hearing.
    Thank you, Mr. Salmon.
    Judge Hastings.
    Mr. Hastings. Thank you very much, Mr. Chairman. Mr. 
Chairman, thank you for holding this hearing and my apologies 
to you, colleagues, and to the witnesses for the fact that I, 
as one Member, as I am sure others do, have very serious 
conflicts and will not be able to stay for the entirety of the 
proceedings.
    Toward that end, Mr. Chairman, I would like to associate 
myself with your remarks, the remarks of Mr. Gejdenson and my 
dear friend and colleague, whom I will miss when he leaves 
Congress and goes back to his religious freedom in Arizona, Mr. 
Salmon. Mr. Salmon serves on the Helsinki Commission and he and 
I, along with other Members, have traveled to Europe 
frequently; and I, Mr. Chairman, am an officer in the 
Organization for Security and Cooperation in Europe.
    My point is, what Matt just got through saying I think is a 
proper segue for me, at this point, to suggest to the Committee 
that today's hearing particularly be placed in a manner whereby 
it can be spread widely among our European colleagues; and I 
will take it upon myself to take these proceedings to the 
Organization for Security and Cooperation in Europe at its July 
meeting, and Mr. Salmon and I can attest to the fact that the 
subject of religious freedom arises frequently.
    I will end by saying, Mr. Chairman, there is a spiritual 
that says, ``A charge to keep have I.'' All of us come from 
different faiths in this great country of ours. To promote 
religious freedom is a charge that all of us should keep, and 
the sooner our European allies recognize this, the more likely 
we are to be able to influence others in the world.
    Thank you, Mr. Chairman.
    Chairman Gilman. Thank you, Judge Hastings.
    Are any other Members seeking recognition?
    Mr. Sherman.
    Mr. Sherman. Just briefly, Mr. Chairman. I know that we 
have had testimony in prior hearings about the treatment of 
those who practice Scientology in Germany. I would hope that 
Germany would show respect for that religious minority and 
others, and it was with great regret that I noticed Germany 
pressing for a World Bank loan to the Government of Iran at a 
time when that country has 13 Jews being charged on trumped-up 
charges.
    And so respect for religious minorities includes not only 
religious minorities within a country's borders, but also 
respect for importance of human rights for religious minorities 
in foreign policy decisions. And I know that there was one 
German citizen who was released from Iranian jails, and I 
appreciate that decision, but I would have been far more 
impressed if the German Government had respected the importance 
of religious liberty in Iran.
    Chairman Gilman. Thank you, Mr. Sherman.
    Are any other Members seeking recognition? If not, we will 
proceed with our first witness, who is Ambassador Robert 
Seiple. Ambassador Seiple's position as Ambassador-at-Large for 
International Religious Freedom was created by the 
International Religious Freedom Act of 1998, which originated 
in our Committee. Ambassador Seiple is a highly decorated 
veteran of the Marine Corps, having flown 300 combat missions 
in Vietnam. He has served in administrative and development 
positions at his alma mater, Brown, as President of Eastern 
College and Eastern Baptist Theological Seminary and as 
President of World Vision. He took up his present position in 
May 1999. We welcome Ambassador Seiple.
    Your statement has been made part of the record. You may 
summarize as you see fit. Please proceed.

  STATEMENT OF THE HONORABLE ROBERT A. SEIPLE, AMBASSADOR-AT-
 LARGE FOR INTERNATIONAL RELIGIOUS FREEDOM, U.S. DEPARTMENT OF 
                             STATE

    Mr. Seiple. Thank you very much, Mr. Chairman and Members 
of the Committee. I am honored to appear before you today to 
testify on the treatment of religious minorities in Western 
Europe. Let me begin by thanking the Chairman and the Committee 
for their strong and continuing contributions toward our goal 
of promoting religious freedom.
    Each of us here today shares a commitment to protecting the 
dignity of all human beings. We hold in common the belief that 
at the heart of human dignity lies the right to pursue the 
truth about the mystery of faith, the truth about our place in 
the universe, about how we ought to order our lives. Together, 
we seek to speed the day when every human being is free to 
pursue that truth as he or she sees fit, not only unhindered by 
others, but protected by the state itself.
    Freedom of religion and conscience is also foundational for 
democracy as recognized in the international covenants. The 
government which fails to honor religious freedom and freedom 
of conscience is a government which does not recognize the 
priority of the individual over the state and that the state 
exists to serve society, not vice versa. By the same token, the 
government which nurtures religious freedom may be more likely 
to honor other fundamental human rights.
    So, Mr. Chairman, the promotion of religious freedom and 
freedom of conscience makes sense from the standpoint of 
freedom in general, but also from the standpoint of all human 
rights and from the standpoint of promoting healthy, vibrant 
democracies.
    Against that background, Mr. Chairman, let me turn to our 
subject this morning, the treatment of religious minorities in 
Western Europe. Overall, it must be said that religious 
minorities are treated better there than in most other regions 
of the world. Indeed, in relative terms, the citizens of 
Western Europe enjoy a measure of freedom that is the envy of 
aspiring democracies around the globe. Persecution on the basis 
of religion in the form of brutal activities by governments, 
such as prolonged detentions without charge, torture and 
slavery, simply does not exist there as it so tragically does 
elsewhere in the world.
    But it also must be said that discrimination on the basis 
of religion does exist in the four countries on which we are 
focusing this morning--Germany, France, Austria and Belgium. 
Let me give you a brief overview of the problems that we see in 
each. Before I do, however, I want to emphasize that the 
standard applied to these countries by the United States is a 
standard that they have accepted. All of them embrace the 
international instruments that protect freedom of religion and 
conscience, including the Universal Declaration of Human 
Rights, the European Convention on Human Rights and the 
International Covenant on Civil and Political Rights. In 
applying these standards, we see ourselves as citizens of the 
world community, putting our national shoulder to the 
international wheel.
    But our willingness to speak of discrimination elsewhere 
should not be taken to imply that we are free of it ourselves. 
When it comes to religious minorities, the United States falls 
far short of a perfect record. One need only recall 
discrimination against the Catholic minority or the Mormons in 
the 19th century. However, we believe that one sign of a mature 
democracy is the willingness to accept criticism so long as it 
is based on international standards of human rights.
    Let me begin with Germany, where our primary disagreement 
involves the treatment of the country's roughly 8,000 
Scientologists. The nub of the problem is that many in the 
German Government believe that Scientology is more a money-
making scheme than a religion. This view is shared by officials 
in certain states where responsibility for religious questions 
are usually handled.
    At the same time, German officials say they are concerned 
that Scientology has, ``antidemocratic tendencies.'' The 
offices for the protection of the constitution at both the 
state and Federal level have been monitoring Scientology since 
1997 for evidence of activities that would constitute a threat 
against the state. Although initial reports concluded that it 
did not, the monitoring continues to this day.
    In 1998, a commission on so-called ``sects and psycho 
groups'' presented a report to the parliament that criticized 
Scientology for, ``misinformation and intimidation,'' of its 
critics, accusing it of being a political extremist group with, 
``totalitarian tendencies.'' Following this, the states of 
Bavaria, Hamburg and Schleswig-Holstein published brochures 
warning the public of the purported dangers Scientology poses.
    For their part, many of the country's Scientologists have 
reported both governmental and societal discrimination in their 
daily lives. Some employers, for example, use the so-called 
``sect filter,'' screening applicants for Scientology 
membership. The Federal Government also screens companies 
bidding on some consulting and training contracts for 
Scientologists, as do some state governments. That these and 
other forms of discrimination are occurring was documented in a 
1998 U.N. Report, although it rejected the outrageous claim 
that Scientologists' treatment was similar to that suffered by 
the Jews during the Nazi era.
    Scientologists continue to take their grievances to the 
German court system. Some, who have charged their employers 
with unfair dismissal, for example, have won out-of-court 
settlements.
    Mr. Chairman, we have discussed these issues at some length 
with German officials, both in Germany and the United States. 
We have stressed, in particular, the risks associated with 
governments deciding what does and does not constitute a 
religion. We have made clear our concern with sect filters. To 
prevent an individual from practicing a profession solely on 
account of his or her religious belief is an abuse of religious 
freedom, as well as discriminatory business practice. We have 
expressed our concern that the continued official observation 
of Scientology by the German Government, without any legal 
action being initiated as a result, creates an environment that 
encourages discrimination. We have urged our German colleagues 
to begin a dialogue with the Scientologists, and we have raised 
our concerns multilaterally at meetings of the Organization of 
Security and Cooperation in Europe.
    Let me now turn to France. There have been recent reports 
by the National Assembly which cast Scientology in a negative 
light, expressing concern that they may use excessive or 
dishonest means to obtain donations. However, the government 
has taken no action against them. Indeed, Interior Minister 
Chevenement and others, including Foreign Minister Vedrine, 
have assumed a very positive and public posture in support of 
freedom of conscience and religion, a fact which has helped 
diffuse tensions considerably.
    But it is also true that France has been on the vanguard of 
the troubling practice of creating so-called ``sect lists.'' 
These lists are created by government agencies--in France the 
list was part of a parliamentary report--and typically contain 
the names of scores of religious groups which may not be 
recognized by the government. Some of the groups are clearly 
dangerous, such as the Solar Temple, which led to suicides in 
France and Switzerland, but others are merely unfamiliar or 
unpopular. By grouping them together under the negative word 
``sect,'' governments encourage societal discrimination.
    Some groups that appear on France's list continue to report 
acts of discrimination. One of them is the Institute of 
Theology in Nimes, a private Bible college founded in 1989 by 
Louis Demeo, who is head pastor at an associated church there. 
Others have been subjected to long audits of their finances. 
For example, tax claims against the Church of Scientology 
forced several churches into bankruptcy in the mid-1990's.
    The Jehovah's Witnesses have also been heavily audited. 
According to the International Helsinki Federation, this audit, 
which began in January 1996 and continues to this day, has been 
done in a manner which suggests harassment.
    In France, too, the United States has been engaged actively 
in promoting a dialogue with French authorities. U.S. embassy 
representatives have met several times with the 
interministerial mission to battle against sects. President 
Clinton, Secretary of State Albright, Assistant Secretary of 
State Harold Koh and myself have each raised these issues of 
religious discrimination with French officials during the past 
year, and we will continue to do so. Our goal is to develop a 
common understanding with the French Government on what actions 
are and are not in accord with international agreements on 
religious freedom.
    Mr. Chairman, the pattern in Austria is not unlike that in 
France. The government has long waged an information campaign 
against religious groups that it considers harmful to the 
interests of individuals and society. A brochure issued last 
September by the Ministry for Social Security and Generations 
described several nonrecognized religious groups, including the 
Jehovah's Witnesses, in decidedly negative terms that many 
found offensive.
    With the recent appointment of a new minister from Jorg 
Haider's Freedom Party there are fears that the government may 
intensify its campaign against religions that lack official 
recognition. We have raised these issues with the Austrian 
Government and will continue to press our view that such 
practices contravene Austria's commitments to religious 
freedom.
    Let me conclude with Belgium. In 1998, the Belgian 
parliament adopted several recommendations from the Commission 
Report on Government Policy toward sects, including the 
creation of a Center for Information and Advice on Harmful 
Sectarian Organizations. The Commission had also appended a 
list of sects in Belgium divided into those considered harmful 
and all others ,and recommended a special police unit to deal 
with the harmful groups. The government has not yet taken any 
action on this proposal.
    Our concern here, Mr. Chairman, is not with the 
government's attempts to deal with illegal activities on the 
part of any religious group, whether recognized or 
unrecognized, new or old. Our fear is that Belgium, like France 
and Austria, is painting with too broad a brush. In its very 
use of the pejorative term ``sect'' to characterize 
unrecognized religious groups, it casts aspersions on those 
groups creating, even if inadvertently, the suspicion that 
there is something wrong with them. But every religion began as 
something new and unpopular.
    We have discussed these issues with Belgian officials and 
we will continue to urge all our European friends to recognize 
that the religious quest must be nurtured, not discouraged, for 
true religious freedom to exist.
    Before concluding, I want to note that Muslims continue to 
experience some discrimination in Western Europe, even though 
Islam is the second largest religion in France and Belgium and 
the third in Austria and Germany. In some cases, this 
discrimination has more to do with race, culture and immigrant 
status than religious beliefs. Indeed, Muslims are free to 
worship and form cultural organizations in each of these 
countries. Islam is recognized as an established, organized 
religion, thus enabling it to claim certain tax exemptions and 
receive some subsidies from the state.
    The most persistent and controversial religious issue 
facing Muslims in Western Europe is the question of head 
scarves and whether girls should be permitted to wear them in 
public schools. The question has caused considerable debate, 
some of it quite charged with overtones of intolerance, but 
civil society is well-established in these countries and many 
organizations have defended the rights of Muslims. If some 
jurisdictions remain opposed to students wearing religious 
clothing, others are becoming more accepting of the practice.
    Our view is that the international covenants are quite 
clear. Freedom of religion includes the right to manifest 
religious belief; surely democracies can find the flexibility 
to tolerate such an expression of piety as the religious head 
scarf.
    Let me conclude where I began, Mr. Chairman. We share a 
great deal in common with our allies and friends in Europe, 
including common religious traditions. Together, we have done 
much to make the world a safer, more human place, a place where 
human rights, like democracy, might take root and nourish. We 
offer these thoughts about religious freedom to our friends out 
of a sense of shared responsibility for what we have done and 
what we might do together. We will continue to discuss these 
matters with them. Our plea is that they consider our argument 
that freedom of religion, while sometimes tragically exploited 
by those who would manipulate fate for their own end, is 
inherently good because it supports the dignity of the human 
person as well as democracy itself.
    Thank you again, Mr. Chairman, for your leadership and that 
of this Committee on the matter of promoting religious freedom 
abroad; and I would be happy to take any or all of your 
questions.
    [The prepared statement of Mr. Seiple appears in the 
appendix.]
    Chairman Gilman. Thank you, Ambassador Seiple. We thank you 
for your work in religious freedom and we know it is a fairly 
new initiative for our government, but we appreciate what you 
have done to date with regard to these issues.
    Ambassador Seiple, is it in contravention of 
internationally recognized human rights standards for any state 
to provide to some religions financial benefits, for example, 
and the right to sue or the right to give religious instruction 
in public schools and not to provide those rights to other 
religions? Should the government tax the receipts of some 
churches or temples or whatever, synagogues, and not others in 
a country where government permits or encourages discrimination 
in employment based on religion? Can that be said to be 
respecting freedom of religion and practice?
    Mr. Seiple. Well, this is discrimination. I think the 
international covenants are--again, all four of these countries 
should be familiar; they are signatories to them, they are 
members of the global community--as it relates to these 
documents, very, very clear that you do not discriminate on the 
basis of thought, conscience and belief.
    That is fairly broad; it was intended to be broad. So 
anytime that you have a minority faith, minority thought, a 
minority belief that is exposed to these kinds of abuses, it is 
against the covenants and the international instruments that 
they have already signed. These instruments, by and large, have 
been put in place so that governments would protect minority 
faiths, and ultimately, a government is determined in terms of 
its human rights records by how it treats its minority faiths.
    So all of this is very much tied to these international 
instruments.
    Chairman Gilman. Ambassador Seiple, does the administration 
believe that Windows 2000 is being boycotted in Germany because 
of Mr. Jensen's religion, and what, if anything, can we or are 
we doing about that, and what are we doing proactively about 
these sect filters as they relate to employment in Germany and 
does the administration work actively to counter French or 
German antisect activists when they appear in countries in 
Eastern Europe?
    Mr. Seiple. The Jensen case, we do follow--have been 
following. We feel it is outrageous. We feel it is far-fetched. 
It is the ultimate in paranoia, but it is a good example of the 
excesses, of the overreach, of what happens when these things 
are allowed to happen under the impunity offered by a 
government that has not come down hard on the right side of 
this issue.
    Yes, we follow this; yes, we have spoken here and abroad 
with the Germans about the sect filters and the potential, the 
obvious potential--not only the potential, the reality for 
discrimination against a religion because of it; and we will 
continue to do that.
    Chairman Gilman. Thank you, Ambassador. Ambassador, what 
will our reaction be if the French adopt a law which would 
allow easy dissolution of sects and which criminalizes ``mental 
manipulation?''
    Mr. Seiple. If I understand your question, the easy 
dissolution of sects by the French, the problem we have had 
from the beginning is, this rather large, indiscriminate list 
of 173 different organizations. They had been put on that list 
because of a Commission report that was commissioned by the 
government. No one knows how they got on that list. No one 
knows the criteria or the definitions that were used to be 
placed on that list, and then the Commission after filing its 
report is put out of business and there is no way to get off 
the list.
    So we have this huge list floating out there with the 
potential for discrimination, and some of the acts that many of 
you have already mentioned--individual discrimination against 
jobs, of threats, harassments, all kinds of things--we have met 
with a number of the people who are on this list, talked to 
them, continue to meet with them and continue to guide them as 
to what might happen. We have also spent a great deal of time 
with the French asking the French to meet with them and not let 
this thing simply hang out there.
    There is some good news to report on the part of the 
French. Cooler heads seemed to be starting to prevail and at 
the various senior levels of government we see a different 
attitude toward this; and hopefully, this attitude of 
intolerance that has been fostered in times past will begin to 
be ameliorated, we will have a different kind of resolution to 
this particular issue.
    Chairman Gilman. Thank you, Ambassador Seiple.
    Mr. Gejdenson.
    Mr. Gejdenson. Thank you, Mr. Chairman. Let me ask you, 
one, what is the impact of the European Union? Are there 
attempts by the European Union to set up a standardized 
procedure to deal with these kinds of issues?
    Mr. Seiple. Well, it is a place for them to go and take 
issues. It is a place for any member of the Union to bring them 
up. Like all of these cases, we need specifics and we need to 
put the specifics through a specific process in order to find 
out if the process is going to deliver the right answers to 
people who are suffering for their faith; and I would say that 
is also the case where the European----
    Mr. Gejdenson. They haven't begun to do it.
    Mr. Seiple. It has not been the player that the OSCE folks 
have been.
    Mr. Gejdenson. If I was sitting in Europe--and I can look 
back and argue that here in the United States, I can't remember 
the year, but it wasn't until the Scientologists won in court 
in 1993 that we gave them the ``normal status,'' I guess you 
could say.
    One, how do we view their situation as different than ours 
in the sense that, you know, we obviously have our tax court 
that creates hurdles for people who join together--some are 
accepted as religious, some aren't--and how do we then look at 
the Europeans and say, well, you have got a process, but we 
don't like it? What is the difference there?
    Mr. Seiple. Well, they have a process. They have a very 
mature juridical process, judicial process. The fact is, they 
haven't put their money where their mouth is. These are issues 
that have been floating around for years, and they haven't been 
taken to court and decided in court, and our feeling has been 
either put up or shut up. If you believe this is wrong or if 
you believe a particular sect is harmful to the government or 
harmful to the health, or is brainwashing people or is a 
traitor to democracy, whatever the thing is that is being 
floated out there, take it to court and decide it. You have got 
the maturity of the court system to do that.
    But the fact is that none of them, none of these issues go 
that far, and so they continue to be innuendos.
    Mr. Gejdenson. Part of what I have seen in the past are 
pamphlets by, I think, one of the conservative political 
parties that were clearly reminiscent of the depiction of 
Jewish people or Jewish beliefs by the Nazis; but it wasn't the 
government. And so, you know, how do we--one, what is the 
government response?
    I know in this country we generally get a very clear 
statement that government officials and the government finds 
offensive the actions of the Nazi party or the Ku Klux Klan. I 
think generally there is a revulsion officially and 
individually by legislative members.
    What has the German Government done in response to those 
pamphlets? I think you are familiar with them, with the ``fly 
swatter'' and what have you, you know, killing Scientologists. 
What has been the government's official response to the 
political party that has issued those pamphlets?
    Mr. Seiple. As far as I know, it is not enough--hasn't done 
enough.
    Mr. Gejdenson. Has it done anything?
    Mr. Seiple. Normally what happens to get this thing to a 
higher level and, normally, to a level of some sanity is that 
it comes from within the state; it comes from the people. It 
has to happen from within.
    At the same time, we bring all of this to the attention of 
our interlocutors on the German side and say, these are things 
that are sticking out there. You have a very highly developed 
judicial system. The rest of Europe looks to you, Germany, in 
the implementation of law; and if you cannot abide by the 
international covenants that you have already signed up to, 
this sends absolutely the wrong signal.
    Mr. Gejdenson. Has the German Government done anything in 
response to these pamphlets that are not issued by governmental 
organizations? Do they take any actions either rhetorically or 
legally against them? Is there a legal course they could take?
    Mr. Seiple. Well, they generally push them down to the 
state level.
    Mr. Gejdenson. And what do the states do?
    Mr. Seiple. That depends on the state. There are some 
States like Hamburg, Berlin, Bavaria, that are very anti-
Scientology, and you can pretty much guess what is going to 
happen there. So this goes back and forth. It is a little bit 
of legislative buck-passing.
    We don't feel good about it. We speak out against it. We 
have been forceful again with our interlocutors on all of these 
issues, but ultimately I think the society in Germany is going 
to have to, as they have in other parts of Europe, rise up and 
make these same statements.
    Mr. Gejdenson. What does the national government do if 
there are anti-Semitic or anti-Muslim activities, activities 
against religions that they recognize? Does the national 
government take action? Does that also go to the state 
government?
    Mr. Seiple. Well, I would think--I don't know the specific 
answer to that, but I would imagine there would be such a 
public outcry that both national and state governments would 
have to respond.
    Mr. Gejdenson. Thank you.
    Chairman Gilman. Thank you, Mr. Gejdenson.
    Mr. Salmon.
    Mr. Salmon. Thank you, Mr. Chairman.
    Ambassador Seiple, wonderful to have you here today. I just 
have a couple of questions, and the first one is, I have been 
working on this for the last 5 years that I have been in 
Congress, and I know that there had been some activity before 
that and the talk doesn't seem to be working. In fact, it is 
not getting better; it is getting worse, and it is expanding to 
other countries.
    When we started working on this several years ago, it 
seemed isolated, seemed more isolated in maybe Germany and 
Austria, but it seems that some of the other countries are 
being emboldened by a lack of standing up to this; and I am 
wondering, is there any other recourse that we as a nation can 
take? For instance, in the Jensen example that Mr. Gejdenson 
brought up, or I believe it was the Chairman, brought up, that 
seems to me to be a violation of our trade agreements when 
American businesses are adversely impacted by these countries.
    Is that not something that can be brought before the WTO, 
and should it be, and who has the responsibility to do that?
    And second, I know when we have had human rights concerns 
with other countries, we have brought up resolutions at the 
United Nations, or at some of the U.N. Committees, we have 
brought up resolutions. Have we considered doing that, bringing 
up a U.N. Resolution? And I say this because it appears that 
what we are doing is not working.
    What more can we do and do you have any recommendations for 
the Congress? Is there something that we can do since it 
appears that the problem isn't getting better, it is getting 
worse?
    Thank you.
    Mr. Seiple. Well, there are a number of questions in your 
comments. This may be the darkness before the dawn as well. We 
see some progress in France. We were very concerned that this 
had been personalized in such a way that all dialogue was going 
to be lost on this subject. Countries claim their sovereignty 
on these issues and, of course, an American trying to tell a 
Frenchman sometimes does not go over, as good as we think our 
intentions have been.
    But there has been progress. What we are talking about here 
are the tactics, what do you do. I think there are two points 
of discernment on truth. One is, what is actually going on in 
France, Germany, Belgium and Austria? Listening to your opening 
comments, all of you, I think we are right on board with all of 
that. Yes, we agree, these are the issues as they have been 
spelled out. Now, what do we do about them?
    They are our allies. Do we get a lot more done by hitting 
them over the head publicly, ranting and raving or whatever? Do 
we do a better job talking softly and sustain that conversation 
over a long period of time?
    We have certainly had these discussions with the OSCE. We 
have been very, very bold. The Helsinki folks have been part of 
that, you know, naming names, pointing fingers, everything has 
been right out there. Again, resistance, step back, put their 
feet in the ground.
    You mentioned the trade issues. The Title VII report that 
comes out from the U.S. Trade Representative mandated on a 
yearly basis, as of last year, May 1999, started to mention the 
problems with sect filters and the potential for problems; and 
that is a direction we may have to go at some point if the case 
exists on the procurement side that discrimination has taken 
place on the basis of religion.
    So these are complicated issues. I can only assure that we 
are as passionate about these things as you are and are 
constantly hammering these things home. Many times, we do it 
much more quietly than people would like, and I think at that 
point, folks do have to judge whether it is helping, it is 
good, it is time for a tactical change.
    This is a group that flew with us in Kosovo. They flew with 
us in Kosovo on a human rights issue, a moral imperative. We 
weren't fighting that war together to gain oil or to get land 
or anything else. It was a moral imperative. They understand 
that; they should understand this. And we try to take those 
kinds of principles and develop our arguments from them.
    Again, I am more optimistic about this because of the 
attention it is getting because of the attention of a hearing 
like this. I think things are beginning to move our way.
    Muslims in France, for example, have an easier time. Some 
of the Scientology questions in France are being quietly 
adjudicated and in favor of Scientology. These are good markers 
to look at. But we will continue to monitor and continue to 
pursue, and where we have to raise our voice, we have not been 
accused of being shy.
    Chairman Gilman. Thank you very much.
    Mr. Manzullo.
    Mr. Manzullo. Thank you very much, Mr. Ambassador. I 
appreciate your coming here.
    I think the United States is too timid. This doesn't make 
sense. There is an official document from the German Government 
saying that they are going to discriminate against people based 
upon the fact that they belong to the Scientology Church. We 
seem to be splitting hairs here on whether or not the Germans 
are saying this is, in fact, a government or it is a type of 
business practice.
    There has been absolutely no proof that this ``business 
practice,'' to use their words, is hurting or endangering any 
trade issues. I think for the U.S. Government to waste time on 
whether or not this is a religious issue or simply another 
nontariff barrier put up by the Germans is a waste of time, and 
I would suggest that what we do is immediately file for a 
panel, have this thing adjudicated in the WTO. That takes a 
long enough time.
    I have got a document here that we were just furnished from 
the State Department on the background for--the title, 
``Background from 2000 Title VII Report.'' The last sentence 
says, ``Commerce will seek to resolve the issue through 
bilateral contacts with senior German trade officials,'' etc.
    Well, excuse me, but we have the tools, we have the WTO; 
and I think there should be a world fleshing of this issue. I 
think the Germans should be held to account in the strongest 
terms possible, that we should use the strongest possible 
measures of the United States now before more injury is done to 
our business interests and to Mr. Jensen's company. I think 
that is the only way the Germans are going to understand this 
issue.
    Sure, they flew with us in Kosovo. That is really 
important. We also fought to liberate Kuwait, and they have 
turned their backs on us and they are jacking up the price of 
gasoline; that is how they say thank you to the United States. 
And I think the only way that this Nation can stand as a beacon 
for religious freedom is to insist in the strongest terms 
possible, through a WTO panel, to get this thing going, get the 
gears moving, because I am sure we would win it on that basis, 
as opposed to going along on some bilateral context.
    Your comments?
    Mr. Seiple. Well, I would be happy to take that 
recommendation back and give it to the appropriate people to 
follow through on. The fact is, we yet do not have a specific 
case under this Title VII report, and when we get a specific 
case, then it can be pursued.
    Mr. Manzullo. We have a written policy.
    Mr. Seiple. But you don't have a specific case to put 
against the policy.
    My point is only this: I think it is premature to call them 
timid when they haven't been able to apply what is now in the 
report. When a specific case comes, then if we sit on the 
sidelines or do less than our duty, then I think it would be 
fair to say we haven't used the power that is at our disposal.
    Mr. Manzullo. So Mr. Jensen, in his testimony, can state 
that his company has lost any percentage of market share of one 
contract with the Germans, then what you are saying is that 
that would be a sufficient threshold showing of damage to bring 
a panel under the WTO?
    Mr. Seiple. I don't think I said that, but I would like to 
take your suggestion on the WTO and put it against this 
particular incident which has not yet been formulated into a 
case on the Federal level that is noted under our Title VII 
U.S. trade agreements.
    Mr. Manzullo. Whenever the Scientologists have brought 
actions in Germany, the courts there don't have the 
precedential power that we have in our country so they get 
thwarted in terms of whether or not the court system can 
protect them. But my understanding also is that the officially 
recognized religions, the German Government exacts the 8 
percent tithe from the people who belong to the organized 
religions. They run the money through the government, and then 
the government doles that back out to the individual churches.
    Mr. Seiple. That's right.
    Mr. Manzullo. That being the case, this appears to be the 
fact that perhaps they are concerned about the fact that people 
who would be attending the Scientology philosophy would drop 
out of belonging to one of these officially organized churches, 
just making this an internal revenue issue for Germany. That, 
in turn, I think could be used to show there's still another 
NTB, nontariff barrier, that they are using to exclude American 
products.
    We need to expose this big time and put ultimate pressure 
on Germany to get them to back off, to get them to rescind that 
ridiculous contract on government procurement. I am going to 
send a letter to the German ambassador to do that.
    Whenever I meet with the members of the EU--this might even 
be a violation of the EU agreement itself among the member 
countries, but we need to explore on the heaviest basis 
everything to nip this type of religious persecution in the bud 
now, before people are really hurt.
    Mr. Seiple. I have no disagreement with that.
    Mr. Manzullo. I appreciate your coming here. Thank you.
    Chairman Gilman. Thank you, Mr. Manzullo.
    Ms. Lee.
    Ms. Lee. Thank you, Mr. Chairman.
    Let me just ask you very quickly a question with regard to 
our foreign policy and the relationship between religious 
discrimination and treatment of minorities and government 
policies such as we have toward a country which we feel, or we 
believe, is engaged in religious repression, such as Cuba. When 
do you think that should kick in, if it should kick in, in 
terms of sanctions and embargo? When should the mistreatment of 
religious minorities be the basis for us looking at a country 
to sanction or to embargo, such as we have, like I said, for 40 
years against Cuba?
    Mr. Seiple. I am in agreement with many of the comments 
that have just been made in terms of when we kick in on the 
discrimination of minority faiths. I think as soon as we hear 
it for the first time, as soon as it is intimated, as soon as 
there is any sense that we have a situation that could go 
further south, so to speak, we have got to yell loud and long. 
I think we have learned this from our Jewish colleagues in 
terms of anti-Semitic remarks that are made and examples of 
that throughout the world.
    To sit back and to wait, or to assume someone else is going 
to take it up for you--we are the strongest nation in the 
world, we are the last remaining superpower. And we now have 
legislation to the point of sanctions; they are very specific 
sanctions that are pointed out in the 1998 International 
Religious Freedom Act. And that is the guideline. It is a high 
bar; it is a very high bar. We are not talking about that bar 
relative to these four countries.
    I think it is very fair to talk about the various avenues 
that we have, either from jawboning, the demarching, the role 
of diplomacy, to things like the WTO as was just mentioned.
    I am a Marine. I believe, when in doubt, you attack 
simultaneously on all fronts. I think that, yes, you pull out 
the stops and you make sure that this kind of religious 
discrimination that we have historical evidence for, where it 
has started in places in times past with all kinds of really 
terrible things taking place because no one stood up at the 
outset.
    Ms. Lee. But then the high bar, when should the high bar 
kick in?
    Mr. Seiple. Well the high bar in the International 
Religious Freedom Act is when a country either engages in or 
tolerates specific language, engages in or tolerates in an 
ongoing systematic and egregious way. So there has to be 
intentionality, there has to be pattern, and there has to be 
egregious behavior which gets further defined under the heading 
of persecution.
    It is very high. It is kidnappings, it is rape, it is 
general mayhem. It is long-term imprisonments and tortures 
without charges.
    Again, we don't have that situation here, so this is not 
the sanction, this is not the bar that we would use to go after 
and make our point and put teeth into it with the Germans or 
the French.
    Ms. Lee. Thank you, Mr. Chairman.
    Ms. Lee. Thank you, Ms. Lee.
    Mr. Smith.
    Mr. Smith. Thank you, Mr. Chairman. I want to welcome 
Ambassador Seiple and commend him on the extraordinarily good 
job he is doing on behalf of religious freedom and speaking 
out, as he has, and traveling as extensively as he has been. He 
and his staff are doing an extraordinarily good job, and I want 
to recognize that, and thank you for that great work.
    Mr. Ambassador, you probably saw, or may have seen on 
today's wire, the Agence France Presse reports that the law 
committee of the French parliament is considering the bill 
sponsored by the Socialist Party that would create a new crime 
of what they call mental manipulation and establish civil and 
criminal penalties for activities by religious or philosophical 
groups that the government officials deem to be unacceptable.
    As you know, this is the latest French parliamentary action 
to threaten religious liberty of French citizens, and our 
commission, in its ongoing dialogue with the French, are urging 
that they reject this legislation and you might want to comment 
on that and other developments as you have in your written 
testimony as well with regards to France.
    I also again want to highlight for the record the case 
which I believe illustrates our concern, the Grace Evangelical 
church in Nimes which is affiliated with the Southern Baptists 
was listed by the French parliament as a dangerous group in 
1997. Since then they have experienced continued harassment and 
discrimination such as the church being refused commercial bank 
loans, members losing their jobs and cars being torched in the 
parking lot of the church. Clearly the French parliaments 
listing of a church in Nimes and the continuation of the 
policies of intolerance have a negative effect on religious 
liberty in France and similar stories as you pointed out in 
your testimony can be told as we have heard in ongoing hearings 
in our Helsinki Commission, can be told about other Western 
countries.
    I want to point out that there is, and we have been you 
know, I talked to the Ambassadors and visiting delegations 
frequently from Western European countries, Eastern European 
countries and central European countries, but further east 
where the rule of law is not that well established, they 
continually cite the examples of place countries like Austria 
as justification for their laws. Russia, Uzbekistan, Romania, 
Ukraine and Belarus have restrictive laws and I was wondering 
if you might tell the Committee if there's a model law in any 
of those countries, any of the countries of Europe that is 
positive because again I think the zeitgeist, the move is 
toward a tightening rather than a relaxation toward religious 
freedom.
    I plan on bringing it up and our delegation will bring it 
up at the OSCE parliamentary assembly in Bucharest in July. We 
plan on being very vigorous in that, but is there any example 
of countries where rather than saying look at Austria because I 
can't tell you how many times I have heard that, I am sure you 
have heard that as well, we are just following in Austria's 
footsteps or France's. Is there a country that is a model that 
they might look at? And of course, the United States shouldn't 
be exempt from your answer.
    Mr. Seiple. Yeah. Well, we are all working on this and we 
all have laws and maybe even enough laws on the books, not only 
our own laws but the international covenants that we have 
signed.
    The question is not so much the laws. It is how they are 
being implemented. We have the same laws in many respects in 
Sweden as we have in Germany. The Swedes have done it 
differently. At point of implementation they have taken a 
gentler, kinder route that also corresponds to what they have 
signed up for on the international side, and I think that is 
what we have to call them to account for.
    Inherent in the international instruments is the concept of 
mutual accountability. That is while I feel emboldened to go 
into Paris and say you have got this wrong and by the way if 
you want to come to the states and pick on us that is OK too, 
but that is what it means to be a part of the international 
community as it relates to the human rights and you are 
absolutely right on the examples. When something like this goes 
wrong in an established democracy, especially democracies that 
take great pride in their history of tolerance, we have a 
number of the rogue States or semi rogue States point to that 
and say you know, they do it, why don't we do it, you have one 
relationship there, another relationship here. Inhuman rights, 
inconsistency is the Achilles heel, and if we are not fair and 
right about all of these countries in our approach to them as 
it relates to human rights, we will get into trouble.
    The new French law or the new French proposal I should say 
at the outset that this kind of legislation has floundered in 
the past. Obviously we hope that this flounders as well. We 
just heard about it yesterday. We talked about it in the state 
Department yesterday. We are on this thing. The down side 
potential could be nasty. We are optimistic. We think that this 
may only be proposed and not see the ultimate light of day.
    In terms of pastor Demeo and the work that he does down in 
Nimes we have been extremely close to him as you have been. I 
have met with he and his wife on a number of occasions. They 
are coming at the end of this month. We will meet again. He has 
been a great person to converse with in terms of the specifics 
because he is at the end of the food chain. He's on the sect 
list, never should have been there. So he is a good example for 
us to use.
    What we would like just as a starting point would be for 
the French Government officials who are most interested in this 
battle against sects to sit down with pastor Demeo and tell him 
why he is on this list. I think that would bring a lot of these 
things to a head. To date unfortunately the French have not 
done that.
    Mr. Smith. Mr. Chairman, at one of our hearings, we had 
Willy Fautre, the Director of Human Rights Without Frontiers, 
from Belgium, and he went into great explanation of the impact 
of freemasonry, European freemasonry on this movement toward--
kind of startled me, because I had not done all that much 
research about what Freemasons are doing in Europe, but he 
talked about many of their people being behind some of these 
laws.
    What is your take on that? Do you have any information on 
that?
    Mr. Seiple. I would not venture that at all. It might be 
and may not be, but it would be a very unprofessional to 
suggest that if I don't have the information.
    These are mature governments. They push back, whether it is 
the Freemasons or some other interest group, they can push back 
if they want.
    I do think, and I have said this before, I do think that 
there is a change in climate in France, and I do think, given 
their history and their proud history of tolerance and the 
growing understanding, that they are into something that 
doesn't portray them in their best light to the rest of the 
world and to Frenchmen. I think we are going to see changes; I 
think we have started to see changes. Again, that doesn't stop 
us from monitoring, and this potential for new legislation 
makes that point.
    Mr. Smith. Again, getting to what may be sources, if you or 
your staff could at least look into that to see if there's any 
validity, that would be helpful to be part of the record.
    Mr. Seiple. We would be happy to.
    Mr. Smith. Thank you, Mr. Chairman.
    Chairman Gilman. Mr. Ambassador, we thank you for being 
here but before you go, I know one of our Members has an 
additional question. I am going to ask Dr. Cooksey to preside. 
I have to attend another meeting for a few minutes, and I will 
return.
    Dr. Cooksey.
    Ms. Lee. Thank you, Mr. Chairman.
    Let me just ask the Ambassador a general question, and I 
know we are concentrating today and focusing on the treatment 
of religious minorities in Western Europe, but I am just 
curious in terms of your knowledge with regard to any debate or 
concerns over the treatment of ethnic minorities in Western 
Europe.
    I lived in Great Britain for a couple of years in the 
1960's, and being an ethnic minority during that period was 
quite challenging, to say the least. I haven't been following 
this issue very closely, and since you are here and we are 
dealing with very important issue in terms of religious 
minorities, I am just wondering, as you do your work and as you 
travel, how things are going; or is there concern or debate at 
this point in Western Europe with regard to ethnic minorities?
    Mr. Seiple. I have been in many of the capitals on this 
issue and talked with the NGO's, the human rights, faith-based 
communities. I have not heard--this is not to say it doesn't 
exist, but I have not heard a concern in this regard. Whether 
that is good news or simply people are talking about other 
things I don't know. We would be happy to look into it and get 
back to you on it.
    Ms. Lee. Thank you very much.
    Mr. Seiple. I think it is an appropriate question, but we 
have not run into that in Western Europe as it relates to my 
portfolio and my position.
    Ms. Lee. I would like to get some more information on it if 
you have it. Thank you very much.
    Thank you, Mr. Chairman.
    Mr. Cooksey [presiding]. The gentleman from Colorado, Mr. 
Tancredo, has a question.
    Mr. Tancredo. Thank you, Mr. Chairman.
    Just briefly, Ambassador Seiple, I am wondering as I sit 
here and listen to your discussion and your analysis, how we 
should go about trying to identify those behaviors on the part 
of governments, that we deem to be inappropriate as they relate 
to these particular religious entities within their countries. 
And it is apparent that it is quite difficult, because we are 
continually addressing them on an individual basis and we seem 
not to have a way of establishing some overall framework in 
order to analyze actions of each government. Therefore, we 
can't really do anything except go to each one and say, we 
don't like it when you do this.
    But I am wondering if it would not be in our best interest, 
it would not satisfy our mutual goal here, to establish as the 
prime criterion for our intervention, something that 
establishes a definition for us to use that is: governments 
should react only to actions and not to thought--react to 
actions, not to thought.
    And if that is unacceptable, certainly you would elaborate, 
I am sure, broadly upon that; but if that basic understanding 
is a mutual understanding here, what do you think the 
administration should do to sort of, you know, implement that 
worldwide?
    Mr. Seiple. Well, I think if we reacted to actions, not the 
thought, and we demanded actions--certain actions, not 
thought--we would certainly eliminate a lot of paranoia around 
these issues. We would get into a much more real discussion.
    We do have frameworks in which to look at this. We have the 
framework of the legislation. We have the framework of our 
office. We have the framework of the embassy system where there 
is ongoing daily discussion of these issues, even as we connect 
maybe on a less frequent basis. We have got the report, which 
is the high court of public opinion because you folks have 
agreed to print it. It is not only on the Web site, but it is 
in hard copy, and these are countries that are portrayed in 
here by region and so you can read the problems that we----
    Mr. Tancredo. And I have--and I don't mean to interrupt 
except to say that I certainly understand the efforts that are 
ongoing to deal with the specific problems that are identified 
in each country. But it just seems to me that that is a very 
laborious process that could be, to some extent, alleviated by 
a general definition that we could get everybody to sign onto, 
that isn't there in the legislation. And the legislation, at 
least that I have seen and that you reference, talks about this 
issue in a way as to still leave it, I think, open to some 
degree of subjectivity; and I just wonder whether or not we can 
come up with some language to implement through the legislation 
and through EU agreements that would eliminate the 
subjectivity, and that is on actions, not thought.
    Mr. Seiple. I think the quick answer to eliminate 
subjectivity may not happen in my lifetime.
    We do have lots of words written. There is a series of 
articles, article 18s, in the universal declaration, the ICCPR 
and things that essentially came out of Europe over the last 50 
years. They still have to be interpreted.
    The issue of national sovereignty as it relates to human 
rights always has to get interpreted, especially on some of 
those that can be most prickly on these issues. I am not sure 
how you shortcut that without an ongoing process which exists 
at many, many levels.
    I am glad that our legislation was cast in the framework of 
the international covenants. This is not a heavy-handed 
American approach. It is an American feeling, a strong feeling 
that we need to put our considerable shoulder to the wheel of 
international instruments that are already out there.
    But the OSCE does a really fine job. There are formats and 
forums and conferences and seminars to advance this discussion.
    At the same time, we have to use the embassy system. I 
mean, it is just too good an infrastructure to bypass when we 
have people who know these issues, know the country, the host 
country, and can speak on a daily basis about them. And then in 
terms of the finitude of resources, I think we have to use all 
of them that are at our disposal and come to bear.
    Having said that, I don't see us creating dramatic changes, 
wholesale changes. I mean, we wrote a good law. If we sit back 
and think that the rest of the 194 countries are waiting for 
this law to pass so they could jump in line, it ain't going to 
happen. We are going to be taking baby steps, incremental 
steps, with lots of countries, and it is going to take a long 
time. It is going to take a lot of perseverance.
    These issues are not going to go away fast whether it is 
our ally or our worst enemy. Our commitment is to continue to 
pursue on all these levels simultaneously, inasmuch as we have 
resources to do, a conclusion that will match thought and 
activity, will match words and what they do, and people will 
begin to see this is a good thing, this is in their best 
interest.
    I can't believe for a second that these four democracies in 
Western Europe enjoy being on the short end of the discussion, 
but we have a better philosophical rationale for what we are 
saying than for them to answer. It must be hard for them to 
make this case. I can only imagine that they are looking for 
ways that they can change over time without the sense that the 
Americans jammed it down their throats.
    Mr. Tancredo. Thank you, Ambassador. I appreciate it.
    Mr. Cooksey. Thank you, Mr. Ambassador. I want to thank you 
for appearing before this panel. I was looking at your resume. 
You have a very impressive resume and I see that you were a 
warrior and a fighter pilot and our careers overlapped at the 
same time.
    Yours was a lot more illustrious than mine was. I was in 
the Air Force. I personally feel that warriors make the best 
peacemakers, and you have obviously been a leader in theology 
at the seminary, and that, too, I think makes you a great 
witness. I appreciate your comments; I appreciate your being 
here. The Committee appreciates your being here, and you will 
be excused and we will have the next panel seated. Thank you.
    I will call on the witnesses in the following order: Dr. 
Gunn, the Reverend L'Heureux, Mr. Brumley, Dr. Hunt, Mr. 
Jensen, Ms. Bell.
    Mr. Gejdenson. Mr. Chairman, I think Ms. Bell is unaware 
that there is a seat for her at the table.
    Mr. Cooksey. On our next panel, the first witness is Mr. 
Jeremy Gunn. Mr. Gunn has looked at issues of religious liberty 
from the perspectives of the U.S. Institute of Peace and the 
U.S. Commission on International Religious Freedom. He has 
published widely on this subject.
    We are happy he was recommended to us by the Committee 
minority. So, Dr. Gunn.

 STATEMENT OF T. JEREMY GUNN, J.D., Ph.D., GUEST SCHOLAR, U.S. 
                       INSTITUTE OF PEACE

    Mr. Gunn. It is an honor to be here to provide testimony 
today.
    During World War II, Felix Chevrier arrived in the small 
French town of Chabannes for the purpose of renovating an 
abandoned chateau to house and school Jewish refugee children 
from Eastern Europe.
    While Monsieur Chevrier and the good people of Chabannes 
risked their lives to save the refugee children, the French 
Vichy Government sent police into the villages of France to 
arrest Jews. By October 1940, the Vichy Government issued a law 
defining Jews and prohibiting them from holding certain types 
of employment, including positions in government, law, the 
police, the army, the press and teaching. The law subsequently 
expanded to prohibit Jews from engaging in most forms of 
commerce.
    Jews were condemned as a group simply because they belonged 
to the group. Such is the peculiar logic of prejudice. It does 
not require individual culpability; it requires only the 
accusation that a person is a member of the condemned class.
    The Vichy Government ultimately was responsible for 
arresting, transporting and delivering to the Nazis tens of 
thousands of European Jews. In stark contrast, all but four of 
Monsieur Chevrier's 400 Jewish children survived the war.
    One of Monsieur Chevrier's colleagues, Dr. Meiseles, had 
previously treated children who were housed in French 
concentration camps before he came to Chabannes. In 1942, while 
the war raged, he wrote, to examine the children of Chabannes 
after having examined the children in the concentration camps 
is to know in our sad times the two faces of France. The true 
one is here in Chabannes where Monsieur Chevrier is working 
with such beautiful success to cure the misdeeds of the other.
    Unfortunately, France, like all countries of the world--and 
I include the United States--has two faces, the face of courage 
and toleration and the face of discrimination.
    There are several obstacles to the internationally 
recognized freedom of religion and belief in France and other 
Western European countries, but before criticizing them, it is 
also important to recognize that these governments and people 
in Western Europe generally believe in the rule of law and 
human rights. Much to their credit, virtually all European 
States have ratified the European Convention on Human Rights, 
and the people of these countries have the option of taking 
complaints to the European Court of Human Rights.
    Although I will devote the bulk of my testimony to the 
problem of new religious movements, this Committee should not 
be under the impression that this is the only or necessarily 
the most important of the obstacles to freedom of religion and 
belief in Western Europe. Without attempting to rank the 
problems in order, three other salient and interrelated 
problems of freedom of religion and belief in Western Europe 
are, first, the incorporation of Muslims into society; second, 
laws that discriminate among religions; and third, societal 
attitudes of intolerance, including anti-Semitism.
    But the one issue that has received increasing notice 
during the past few years in Europe is what may be called the 
``antisect movement.''
    The most serious problem regarding the antisect movement in 
Western Europe is in France. In 1998, the French Government 
established an agency entitled, unsubtly, the Interministerial 
Mission to Battle Against Sects. The mission is now headed by 
the former French foreign minister, Monsieur Alain Vivien. 
During the past few years, the French National Assembly also 
has issued prejudicial reports on so-called ``sects'' that are 
shockingly unscientific. Widely supported bills, currently 
pending in the French legislature, including one that was 
mentioned a few moments ago, call for increasingly severe 
measures against sects.
    I will describe two interrelated problems of the official 
antisect movement in France to illustrate how a legitimate 
concern for human welfare can be diverted toward the taking of 
illogical and discriminatory action.
    First, the language of prejudice uses pejorative terms as 
an appeal to the listener's bias. The most commonly employed 
term by the antisect movement is, of course, the term ``sect,'' 
which plays a role similar to that of racial epithets.
    One common tactic by some in the antisect movement is to 
accuse their ideological opponents of being members or fellow 
travelers of the scorned groups. I personally witnessed one 
telling example of this tactic by the president of the 
interministerial mission, himself, against a member of an 
official U.S. delegation in France.
    In April 1999, a three-person delegation sponsored by the 
U.S. Department of State Office of International Religious 
Freedom went to France and other European countries. Shortly 
before the meeting, we were advised that the president of this 
new interministerial mission had declined our request to meet 
with him. He did so on the grounds that one of the members of 
our delegation was affiliated with the Church of Scientology.
    Now, I am not a Scientologist and I knew that the other two 
participants, Dr. David Little and Karen Lord, Council for 
Religious Freedom at the congressional Helsinki Commission, 
were not Scientologists.
    The president later decided that he would, in fact, meet 
with us, but as we were introduced to him, he remarked that he, 
``already knew who Ms. Lord was and that he did not need to be 
introduced to her.'' Later in the meeting, following a question 
by Ms. Lord, the president said that he would not respond to 
her, but would give a response to the head of the U.S. 
delegation. Subsequently, Monsieur Vivien has repeated publicly 
on several occasions that a member of this three-person 
delegation was affiliated with the Church of Scientology.
    Monsieur Vivien's assertion is, in a word, false. I am 
certain that he cannot prove his assertion. I challenge him to 
provide evidence to support it or to issue an apology to Ms. 
Lord and the United States.
    The most important issue, however, is not that Monsieur 
Vivien made a false statement that was designed to discredit 
Ms. Lord or the United States Efforts to promote religious 
freedom. The important issue is that his manner of responding 
to questions about religious discrimination exemplifies the 
tactics of much of the antisect campaign, the use of 
uninformed, provocative and false allegations for the purpose 
of discrediting people and groups.
    His ad hominem attack was not an aberration. It has 
unfortunately become a standard rhetorical device to discredit 
those who believe that the antisect movement is going too far. 
I give some additional examples in my prepared testimony.
    The language of prejudice also reveals itself in the use of 
such terms as, ``infiltration'' to describe the real or 
imagined employment of a ``sect member'' in a business or 
government office. Whereas if Catholics or members of the 
Reformed Church teach in school or work for Electricite de 
France, they are called ``employees,'' but if they are members 
of the groups under attack, they are called ``infiltrators.'' 
This is the use simply of pejorative language.
    Second, there are illogical methods of prejudice that come 
into play, and I would like to identify four now. One, the 
methods of prejudice do not consult scholars familiar with 
issues related to new religious movements, but rely instead on 
antisect activists. By failing to consult scholars, the report, 
particularly in France and Belgium, presents an ahistorical and 
caricatured view of new religious movements.
    Two, the reports in the antisect movement rely on 
statements made by accusers and disgruntled former members, but 
they refuse to accept the considerable evidence that most, 
although not all, adherence of the new religious movements 
generally report positive and beneficial experiences with the 
groups. This was, in fact, the conclusion of both the Swedish 
and the German Governments' investigations into new religious 
movements.
    In a telling repudiation of this methodology employed by 
the antisect movement, a French court recently found Jacques 
Guyard, president of the 1999 parliamentary investigation, 
called ``The Finances of Sect,'' libel himself for defamation 
against anthroposophy. As reported by the newspaper, Le Monde, 
the court held that his parliamentary report and his statement 
was not ``a serious investigation.'' Monsieur Guyard, for 
making the statement about anthroposophists, was fined 20,000 
francs and ordered to pay 90,000 francs in damages.
    The French antisect movement typically refuses to engage in 
dialogue with the groups they are attacking. This refusal to 
engage in a discussion with the groups that are under attack is 
an approach very different from that recommended by the Swedish 
Government, for example, which strongly recommends dialogue 
with groups rather than polarization of the issues. That is 
also the recommendation made by the Organization of Security 
and Cooperation in Europe.
    Three, the principal documentary evidence in the French 
reports are secret allegations contained in the files of the 
Renseignements Generaux, the security division of the French 
police.
    Four, the reports use examples of alleged misdeeds of some 
people in some groups and then broadly condemn the entire 
group, or even sects generally. The fallacy of this type of 
analysis can be easily illustrated by reference to the recent 
criminal conviction of Jacques Guyard himself. The spring has 
not been kind to Monsieur Guyard, being sentenced to having 
committed a criminal offense and defamation against religious 
minorities. The same Monsieur Guyard who condemned in 1999 the 
fraud committed by sects was ironically convicted by a French 
court in May of this year for influence peddling and was 
sentenced to 1 year in prison and fined 100,000 francs. If we 
were to apply the same analysis to Monsieur Guyard that he 
applies to the new religious movements, we would then need to 
hold the entire----
    Chairman Gilman [presiding]. Dr. Gunn, I would just like to 
interrupt you. You are exceeding your time and I would hope you 
could summarize your statement. Thank you.
    Mr. Gunn. Yes, thank you. It would be the same as holding 
the entire French interministerial mission responsible for the 
actions of Monsieur Guyard.
    I would like to make four short recommendations. First, the 
Department of State should monitor much more closely and 
vigorously antisect movements on both bilateral and 
multilateral basis.
    Second, based upon my experience working in the State 
Department, I must also suggest that Congress take seriously 
its responsibility for fully funding the State Department. From 
my own observations, personnel in the State Department are 
overworked and undersupported. There's a need for more time and 
resources in the State Department.
    Third, Congress could assist the Department by promoting 
genuine international approaches to human rights.
    Fourth, I believe that the religious community in the 
United States can be much more helpful in supporting religious 
freedom abroad. While all faiths in the United States can help, 
those that are widely practiced and respected in Europe, 
particularly Catholicism, Lutheranism, Orthodoxy and the 
Reformed Church can play a very helpful role in promoting 
tolerance.
    I don't know how long the antisect movement is going to 
continue in France. The Vichy Government continued in France 
for 4 years, and I hope the life of the antisect movement does 
not have much longer.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Gunn appears in the 
appendix.]
    Chairman Gilman. Thank you, Dr. Gunn.
    Just one admonition to our panelists. Since time is running 
and we want to hear from all of you and then we want to have a 
dialogue with our Members, I am going to ask if you would try 
to keep within the 5-minute rule that we have. Your full 
statements have been made part of the record.
    We will now proceed to our next panelist, The Reverend N.J. 
``Skip'' L'Heureux. The Reverend L'Heureux is Executive 
Director of the Queens, New York, Federation of Churches and 
Moderator of the Religious Liberty Committee of the National 
Council of Churches of Christ in the United States. He is a 
Methodist pastor with wide experience in ecumenical work and 
religious freedom questions.
    We welcome your proceeding, Mr. L'Heureux.

 STATEMENT OF THE REVEREND N.J. L'HEUREUX, EXECUTIVE DIRECTOR, 
                 QUEENS FEDERATION OF CHURCHES

    Reverend L'Heureux. Mr. Chairman and distinguished Members 
of the Committee, thank you for inviting me to testify today 
about the worsening problem of religious intolerance in France, 
and I will present here a short summary of my testimony.
    It was 343 years ago on December 27, 1657, that residents 
of Flushing, Queens, began a letter to then-Governor Peter 
Stuyvesant by declaring ``You have been pleased to send up unto 
us a certain prohibition or command that we should not receive 
or entertain any of those people called Quakers because they 
are supposed to be, by some, seducers of the people. For our 
part, we cannot condemn them.''
    The Flushing Remonstrance is the earliest declaration of 
religious liberty on these shores, focused on securing that 
liberty not just for self, but for individuals and groups other 
than the ones making the declaration.
    France is a signatory to international human rights laws 
protecting religious freedom. Unfortunately, the French 
Government policy is so far in violation of these tenets that 
its officials have set up an office called the Interministerial 
Mission to Fight Against Sects, commonly known as MILS. MILS 
has drawn deep from the wells of hostility fueled by the 
American anticult movement and by its long campaign of militia 
vilification of new or religious religions.
    In France, a 1996 parliamentary commission report 
stigmatized some 173 religious movements with the pejorative 
label of ``sect,'' including the Baptists, Mormons, Jehovah's 
Witnesses and Seventh Day Adventists. We notice, as well, that 
there is discrimination visited in France upon the Muslim 
community.
    The U.S. State Department's Annual Report for Religious 
Freedom, published last September, criticized this commission 
report on the grounds ``It contributed to an atmosphere of 
intolerance and bias against minority religions.''
    Earlier this year, as has been noted, the Rapporteur of the 
Parliamentary Commission was himself convicted by a Paris court 
and denounced for research methods counted by the court as 
``not serious.'' And yet the blacklist of this 173 movement 
continues to circulate and is used to justify discrimination 
against the groups.
    In March, I was a member of an expert panel in a 
nongovernmental hearing in Paris which drew more than 300 
people from 38 minority religious movements to describe the 
discrimination to which they had been subjected. I and the 
other members of the panel were shocked at what we heard, 
because it was evident that these individuals were being 
targeted solely because of their religious beliefs.
    I felt it necessary to bring the situation to the attention 
of a wider audience and then sought to place a series of paid 
advertisements in French newspapers in the form of Open Letters 
to senior French officials. The Open Letters focused attention 
on the violations of European and international human rights 
standards caused by MILS, and they were, in turn, signed by 
some 52 religious and human rights leaders, mostly American.
    Four major national newspapers in France refused to publish 
them. Only the national paper, France Soir, agreed to run them, 
and on April 20 published our Open Letter to the President 
Jacques Chirac.
    American signatories of these ads included Lee Boothby, of 
the International Commission for Human Conscience; Dr. Derek 
Davis, Director of the J.M. Dawson Institute of Church-State 
Relations at Baylor University; the board of the First church 
of Christ, Scientist in Boston; Dr. Franklin H. Littell, 
Professor of Holocaust and Genocide Studies at Richard Stockton 
College in New Jersey; Dr. David Little of the Harvard Divinity 
School; Melissa Rogers, General Counsel of the Baptist Joint 
Committee on Public Affairs; and representatives of many 
Christian, Muslim and Jewish faith communities.
    Such was the furor following publication of this Open 
Letter that although France Soir had agreed to run the third 
letter a week later, the paper not only reneged, but the chief 
editor publicly stated that he had published this letter on 
April 20 by mistake.
    It is against this background that we come to a recent and 
most disturbing development in France to date, the proposed 
bill pending now before the National Assembly about which much 
has been said. That bill is the subject of an Open Letter 
published today in the International Herald Tribune, a letter 
addressed to Prime Minister Lionel Jospin saying it is a 
flagrant violation of fundamental human rights standards in 
that it singles out and targets members of minority religions 
even as a special category of citizens.
    The bill's title proclaims its discriminatory intent, ``Law 
Proposal Aimed at Reinforcing the Prevention and the Repression 
of Groups With Sectarian Character.'' The proposed law is 
essentially the product of the hysteria about minority faiths 
brought about by MILS and its president, Alain Vivien.
    Mr. Chairman, I would urge you and the Members of the 
Committee to make the strongest possible representations to the 
French Government that should this law pass, it will place in 
question France's commitment to the Helsinki Accords. Such a 
law would be a cancer on French democracy. Only by sending a 
strong and unmistakable signal of Congress' intent to take firm 
measures against violations of international human rights codes 
will we be able to succeed in halting these reverses for 
religious freedom in Europe.
    I thank you very much for hearing my testimony, and I will 
be happy in the dialogue to respond to your questions.
    [The prepared statement of Reverend L'Heureux appears in 
the appendix.]
    Chairman Gilman. Thank you very much, Reverend L'Heureux. 
We appreciate your reference to the work of our New York 
ancestors as well.
    We will now move on to the next witness, Philip Brumley, 
General Counsel of Jehovah's Witnesses. Mr. Brumley has 
traveled all over the world in support of religious liberty.
    We thank you, Mr. Brumley, for being here today, and you 
may now proceed.

 STATEMENT OF PHILIP BRUMLEY, ESQ., GENERAL COUNSEL, JEHOVAH'S 
                           WITNESSES

    Mr. Brumley. Good morning, Chairman Gilman and Congressman 
Gejdenson and to all of you on the House Committee on 
International Relations.
    Today happens to be a very special day. Most of you will 
know that it is Flag Day. It is also a special day for all 
lovers of religious freedom because it marks the 57th 
anniversary of an historic Supreme Court decision, West 
Virginia v. Barnette. In that case, the Supreme Court held that 
it was unconstitutional to force children of Jehovah's 
Witnesses to salute the flag. Most do not understand nor 
necessarily agree with our position that while we owe respect 
to the flag we may not salute it, but that decision stands as 
irrefutable proof that this country does stand up and grant 
religious freedom to all, including those of minority faiths.
    One would expect that the situation would be similar in 
Western Europe. Sadly, this is not the case, as has been 
testified. Witness communities have been active in Western 
Europe since 1890, over 100 years. There are approximately 1 
million active Jehovah's Witnesses in Western Europe, 
approximately 1,600,000 who also attend our services. During 
World War II, hundreds of Jehovah's Witnesses paid the ultimate 
price for not compromising their faith.
    With this backdrop, it is surprising to see the treatment 
Jehovah's Witnesses are receiving in Western Europe.
    I begin with France because it is the epicenter of 
religious intolerance of Jehovah's Witnesses. Two years ago 
France imposed a 60 percent tax on all donations made to our 
administrative center in France. They assert that we owe as 
much as $50 million in unpaid taxes.
    Here we see the level of sophistication of religious 
intolerance. The French authorities will assert that Jehovah's 
Witnesses are free to believe whatever we will, but their anti-
sect commission labeled us a dangerous religion and this had 
the effect of declaring open season on Jehovah's Witnesses.
    Let me give you one example of what happens now to 
Jehovah's Witnesses in France. One of our ministers, Rene 
Schneerberger, for decades has sent religious literature to 
inmates in prisons throughout France. Recently those inmates 
informed him they were no longer receiving the literature. When 
he inquired as to the reason, he was given the following answer 
by the Bapaume prison officials, ``Receipt of these magazines 
has been suspended because of the sectarian nature of Jehovah's 
Witnesses as recognized by the parliamentary commission.''
    Regarding Belgium, let me inform you of the situation that 
children of Jehovah's Witnesses routinely face in Belgium with 
regard to religious intolerance. A teacher in the Ecole des 
Pagodes issued a paper for class discussions and said this, 
quoting, ``In Belgium there are 189 dangerous sects and 37 are 
hard-core ones such as Jehovah's Witnesses.''
    Now, how would you have felt if your children and their 
faith were subjected to such scrutiny and intolerance in their 
classrooms?
    Some who are Jehovah's Witnesses in Belgium have lost 
custody of their children just because they happen to be 
Jehovah's Witnesses. In one case the judge states ``It 
constitutes a grave danger for the children taking into account 
the influence of the Jehovah-sect of which the mother seems to 
be a member.'' Another judge was even more openly bigoted. He 
said, ``Jehovah's Witnesses are not to be viewed as a religion 
but as a movement of fanatics.''
    What about Germany? As the fall of communism drew near, the 
East German officials granted Jehovah's Witnesses full 
religious status, a status superior to the mere not-for-profit 
status we enjoy in Western Germany.
    When unification took place, we moved to have complete 
religious freedom throughout Germany like the other majority 
religions. A trial court and an appellate court ruled that we 
were entitled to this status--it is called corporation of 
public law status--but the high administrative court ruled 
against us. For the first time, it said that we lacked the 
degree of loyalty necessary for any religion seeking 
corporation of public law status. They said that we lacked this 
loyalty because we are neutral in political matters. This case 
is now pending before the German Constitutional Court and we 
hope for a favorable victory there.
    Once again, let me show you the effect on local Jehovah's 
Witnesses. For decades, one couple had been used to care for 
foster children. When the Local Youth Office of the German 
Government was informed by an anti-cult chairman that the 
couple happened to be Jehovah's Witnesses, they moved to have 
the children removed from this couple. This led to a 2-year 
court battle that the couple ultimately won, but the Local 
Youth Office has now refused to assign any new children in 
their care.
    Next, let me summarize briefly the situation in Austria. 
For decades, we were moving through the political and the legal 
court systems to obtain the same religious status as other 
religions in Austria, and Mr. Chairman, just as we were getting 
to the point of obtaining this religious status, the national 
legislature of Austria convened and passed a new law. The new 
law for the first time imposes a 10-year waiting period for any 
organization seeking full religious recognition. The law 
applies to nobody but Jehovah's Witnesses. No one else is 
seeking this status at present. It was clearly passed with us 
in view.
    Again, let me move to the individual level of what is 
happening to Jehovah's Witnesses. One of our brothers was 
applying for a job for which he was well qualified and for 
which he was going to be accepted, but when they found out he 
was one of the Jehovah's Witnesses, he received the following 
letter ``We thank you for your application but we are sorry to 
have to tell you that we do not employ persons belonging to any 
kind of sect.''
    To just summarize a final matter, Sweden is complicating 
our operations there because of not recognizing the concept of 
voluntary work on behalf of religious endeavors. Although 
Sweden has a much better record than the other four countries I 
just mentioned, it is hampering our volunteer work to build new 
Kingdom Halls because those who would serve as volunteers to do 
this have to pay a tax on their labors as though it is a 
taxable event.
    Well, clearly something is wrong in Western Europe. What is 
the solution? Well, Jehovah's Witnesses turn to the scriptures 
first, and Isaiah foretold this: ``In the wilderness justice 
will certainly reside, and in the orchard righteousness will 
dwell. . . . My people must dwell in a peaceful abiding place 
and in residences of full confidence.''
    Jehovah's Witnesses recognize that the complete fulfillment 
of that lies ahead in the future, but in the meantime, we call 
upon this Committee and all governments to recognize our God-
given right to religious freedom that currently Western Europe 
extends only to majority faiths.
    [The prepared statement of Mr. Brumley appears in the 
appendix.]
    Chairman Gilman. Thank you, Mr. Brumley.
    Your reference to the Supreme Court's decision in Barnette, 
which not only came on Flag Day, but came in the midst of war, 
reminds us how strong the impulse is to provide for religious 
freedom in our own Nation. After all, that is why many of our 
ancestors first came here to begin with, to look for freedom of 
religion.
    We will now avail ourselves of the digital video conference 
facilities of our Committee and the facilities of our American 
embassy in Vienna to hear our next witness. We thank the public 
affairs staff of our embassy in Vienna for their assistance in 
this endeavor.
    We will now call upon in Vienna, Dr. Robert A. Hunt. Dr. 
Hunt has, since 1997, been the pastor of the English-Speaking 
United Methodist Church of Vienna. He is a Texan by birth and a 
graduate of the University of Texas, Southern Methodist 
University, and the University of Malaya, where he earned his 
Ph.D. Dr. Hunt has served congregations in Texas, in Malaysia 
and in Vienna and has worked in New York and in Singapore. He 
is a specialist in Christian-Muslim relations.
    We know how happy you are in your own ministry, Dr. Hunt. 
Nevertheless we are grateful that you are willing to share your 
concerns about the present environment in which you are working 
in Vienna.
    Dr. Hunt, please proceed.

   STATEMENT OF THE REVEREND ROBERT A. HUNT, PASTOR, ENGLISH 
 SPEAKING UNITED METHODIST CHURCH, VIENNA, AUSTRIA (Via video 
                        teleconference)

    Reverend Hunt. Thank you very much, Mr. Chairman. I want to 
thank the Committee, as well, for inviting me to give this 
testimony and to share some of the experiences that I have had 
in Vienna.
    According to a statement of the Austrian Information 
Service, dated January 20, 1998, the laws which regulate the 
legal status of religious belief communities, especially the 
law of 1998, while making distinctions among them, in no way 
infringe on the rights of individuals or groups to choose their 
religion and practice it in public and in private.
    I would like to suggest that the right of religious freedom 
cannot, however, be separated from the issue of the legal 
status of religious communities or official or unofficial bias 
against particular religious communities and practices.
    It is my experience that even though United Methodists----
    Chairman Gilman. We pause for technical difficulties.
    Dr. Hunt, we are having some problem. You seem to be 
disconnected. We will try to come back to you as quickly as we 
can.
    I am going to--in the interim, we are going to call on 
Congressman James E. Rogan, a Representative in Congress from 
California, who is here today to introduce the next witnesses; 
and if we are able to get Dr. Hunt back on the line, we will 
interrupt you.
    Congressman Rogan.
    Mr. Rogan. Let me tell you, as a Member of Congress, being 
interrupted goes with the turf, but I especially thank you for 
calling this hearing and giving me the privilege to take a 
moment to introduce two witnesses to this Committee who are 
both friends.
    The first witness literally needs no introduction. I am 
sure she is familiar to all of the Members of this Committee. 
Catherine Bell is the star of the hit CBS show, JAG. On that 
show she plays a military attorney. I teased her yesterday, I 
said you have the best of both worlds, you get paid for 
pretending you are an attorney but you don't have to go through 
the disgrace in life of actually being one. So I want to thank 
Catherine for coming out.
    She is a member of the Church of Scientology. She lives 
near me in Los Angeles, and in her presentation she will be 
reading prepared testimony of another great actress, Anne 
Archer, who could not be here today.
    The second witness that I wanted to introduce is an old 
friend of mine, he is also a constituent, Craig Jensen from 
Glendale, California. Craig is the CEO of Executive Software. 
His company produces key software that enables disk operating 
systems to run more efficiently. It is a core component of most 
computer software operating systems. His company has 
contributed much to our national economic expansion in the last 
couple of decades.
    Currently Microsoft plans to include Craig's software in 
their Windows 2000 operating system. However, the Microsoft 
product launch, while heralded around the world, is being 
severely disadvantaged in Western Europe and, in particular, in 
the Federal Republic of Germany. The origins of this imposition 
relate to the fact that Craig Jensen a member of the Church of 
Scientology.
    Mr. Chairman, this Committee as a long history of acting on 
behalf of religious freedom. Its work has carried the torch of 
liberty to many new lands. It is in this spirit that I thank 
you for inviting Craig, Catherine and the other witnesses 
before this Committee and for giving me the privilege of making 
this brief introduction of both of them.
    Chairman Gilman. Thank you, Congressman Rogan. We thank you 
for being here with us.
    We will now call upon Mr. Craig Jensen, the entrepreneur 
who founded and is President and CEO of Executive Software.
    Mr. Jensen.

STATEMENT OF CRAIG JENSEN, CHAIRMAN AND CEO, EXECUTIVE SOFTWARE

    Mr. Jensen. Mr. Chairman and distinguished Members of the 
Committee, thank you for giving me the opportunity to tell you 
about an embargo of American products by the Government of 
Germany. I will be presenting a brief summary of my views.
    I am the CEO of Executive Software, a company I founded in 
1981 in California. My company's products are in use in every 
sector of the American economy, including right here on Capitol 
Hill, and are sold extensively abroad as well.
    I would like to point out that no other country on earth 
can produce software of the quality and usefulness that 
American software companies produce. In view of this, a foreign 
embargo of American software products must be viewed as a 
hostile act. Purchase of my products is restricted in Germany 
by government edict. And now, the fact that Microsoft's new 
Windows 2000 operating system includes a component developed by 
my company is being used to justify a ban on the sale of 
Windows 2000 in Germany.
    Why? The official reason given is that my company is headed 
by a member of the Church of Scientology. But what does my 
religion have to do with selling software? Nothing. The German 
Government makes no attempt to hide the fact that their embargo 
is based on religious discrimination. In fact, the government 
officials see nothing wrong with religious discrimination.
    Simply put, I come here today to alert your attention to a 
trade embargo justified on the grounds of government-mandated 
religious discrimination. Let me give you the background.
    In December, a German magazine article proposed a ban on 
Windows 2000 on the grounds that I, as CEO of a Microsoft 
supplier, am a Scientologist. The official German news agency, 
DPA, sent out an international news story saying that my 
involvement in Windows 2000 is ``of interest to the Catholic 
Church, the other German states, the Office for the Protection 
of the Constitution and German industry.'' A government 
official from the Hamburg Ministry of the Interior fanned the 
flames by boasting in the press that in Bavaria and Hamburg, 
the government does not use services or products from companies 
owned by Scientologists.
    While such a blatantly discriminatory admission would be 
condemned immediately in this country, in the climate of 
intolerance created by the German Government, it is allowed to 
pass.
    That official heads an office called ``Working Group 
Against Scientology,'' which created the so-called ``sect 
filter'' which forbids employment or contractual relations with 
individuals participating in the Church of Scientology. In the 
end, the German Security Technology Office informed Microsoft 
that they would not certify Windows 2000 for sale in Germany 
because part of the program was produced by a company owned by 
a Scientologist. Although the U.S. State Department has 
repeatedly condemned the German Government's use of the sect 
filters, the discrimination has not lessened. In fact, it has 
gotten worse.
    Official German discrimination has broadened from 
individuals to corporations and now to corporations who 
suppliers employ or are owned by members of minority religions. 
Official statements from the German Government have confirmed 
that public bodies expressly ban purchases from companies owned 
by or associated with Scientologists, effectively prohibiting 
the purchase of U.S. products.
    This year, for the first time, the U.S. Trade 
Representative placed Germany on the watch list over its abuse 
of Scientologists' rights. The inclusion of Germany in her 
report shows that, in the view of the U.S. Government, 
Germany's discriminatory practices are not only a blatant 
violation of human rights, but a threat to American trade as 
well.
    Mr. Chairman, I come to you today not just on my own 
behalf, but on behalf of my friends, partners, and business 
associates who are suffering at the hands of official German 
bigots who can't stand the thought of anyone participating in a 
sect or free church.
    I also come before you on behalf of all members of the 
Church of Scientology who are forbidden employment, political 
party affiliation and even schooling for their children because 
of their religious beliefs. I ask you to send a message to the 
German Government that the Congress and the people of the 
United States will not tolerate either human rights violations 
of a religious nature or discrimination against American trade.
    Perhaps the most effective action that you take at this 
time is to give your full support to the resolutions on 
Germany, H.R. 388 and S. 230, which call upon Congress and the 
President to demand that Germany abide by international human 
rights law.
    Mr. Chairman, thank you for the opportunity to appear 
before this Committee, and I will be happy to respond to any 
questions.
    [The prepared statement of Mr. Jensen appears in the 
appendix.]
    Chairman Gilman. Thank you, Mr. Jensen.
    We will now proceed with our final witness, Ms. Catherine 
Bell, known for her television series of JAG. As a former 
Marine Corps attorney, I am sure you don't hesitate to give us 
straight testimony today. Thank you for being here.

              STATEMENT OF CATHERINE BELL, ACTRESS

    Ms. Bell. Thank you. Mr. Chairman, distinguished Members of 
the Committee, thank you very much for holding today's hearing 
and for the opportunity to testify.
    In fact, I am here at the request of my friend and fellow-
actress, Anne Archer, whose professional commitments 
unfortunately prevent her attendance at this hearing , to speak 
on her behalf. With your permission, Mr. Chairman, I would like 
to present the testimony she would have given had she been here 
today.
    First, a word about my interest in this issue. Having been 
born in London to an English father and a Persian mother, then 
becoming an American citizen at a young age and spending most 
of my life in the United States, I have learned that difference 
is best celebrated, and never made a reason for division or 
discrimination.
    Therefore, when I first heard that government officials in 
many were canceling the exhibitions and concerts of artist 
friends of mine solely because of their religion, I was shocked 
that such intolerance could be enacted by a Western government 
which loudly proclaims its commitment to democracy.
    Mrs. Archer has undertaken two fact-finding missions and 
has been committed to combating religious discrimination 
against members of minority religions in Germany for several 
years. In addition to her fact-finding visits to Germany, she 
has addressed large rallies for religious freedom and human 
rights in Berlin, Frankfurt and Hamburg. In October 1998, she 
raised the problem before the plenary session of the 
Organization for Security and Cooperation in Europe, and she 
has also taken up the issue with various members of the 
European Parliament.
    Last October, she visited Congress again to welcome the 
introduction of H.R. 388 and S. 230, regulations which now have 
a combined total of more than 50 sponsors in the House and 
Senate. The resolutions call upon the German Government to 
comply with its obligations under international human rights 
laws and to respect the rights of minority religions.
    On behalf of Anne Archer, I would like to thank you, sir, 
as Committee Chairman, as well as Congressmen Salmon and Payne 
for introducing the resolution in the House, and Senator Enzi, 
the principal sponsor in the Senate. Our thanks go also to the 
many Members of this Committee who have cosponsored the 
resolution. I trust that after today's hearing, those Members 
who have not yet signed onto H.R. 388 will be motivated to do 
so.
    Present in this room today are nearly two dozen German 
citizens who have come here to witness the fact that an 
official body would care enough to hear their personal 
grievances and provide an open forum to air the facts about 
governmental religious discrimination in Germany. I would like 
to introduce some of them to you, and briefly recount their 
personal stories of discrimination.
    Mr. Carl Rohrig is a very talented graphic artists whose 
work has been exhibited internationally and has appeared on the 
covers of leading international magazines. He is here today 
with his daughter, Marlene. Because of his religious beliefs, 
Mr. Rohrig has been blacklisted and has had exhibits boycotted 
or canceled. His bank accounts were closed without explanation 
and his family threatened. He was compelled to send his family 
abroad to rescue them from the discrimination and intolerance 
they faced in Germany, and his children are now being schooled 
in Denmark, not in their native country. In addition to the 
disruption of Car's pursuit of happiness, he has suffered 
economic damage totaling hundreds of thousands of dollars.
    As a recent example: In January this year, Mr. Rohrig held 
an exhibition of his work in Neuberg, Bavaria. The town's 
cultural director learned that Mr. Rohrig is a Scientologist 
and demanded that the gallery director cancel the exhibition. 
When the director refused, the city government publicly called 
for a boycott of Mr. Rohrig's exhibition, resulting in a 
financial loss to him of more than $20,000 because several 
clients canceled their purchases of his paintings and prints.
    Mr. Hans Schorr, another Scientologist who is here today 
with his family, worked for 20 years as a journalist, producing 
highly regarded reports for Bavarian and national German 
television on the central issues of the day. After his 
religious affiliation became known, all work suddenly dried up. 
In the end, he had no choice but to leave Germany, and he and 
his family now live here in the United States.
    Finally, I would like to introduce Ms. Antje Victore, who 
in 1997 became the first German Scientologist to be granted 
asylum by a U.S. Immigration court on the grounds that she 
faced ruinous religious persecution if she had to return to 
Germany.
    I understand that on behalf of all those experiencing 
discrimination in Germany, the members of my religion who are 
here today wish to present a petition to you, Mr. Chairman, 
asking for the full support of your Committee behind H.R. 388.
    In addition, Mr. Chick Corea, who had hoped to be here 
today, but is prevented from attending by a physical 
impairment, has requested that his written testimony and 
evidence regarding German officials continuing denials of his 
right to perform in Germany be included in the record.
    [The prepared statement of Mr. Corea appears in the 
appendix.]
    Hearing these accounts of discrimination, you may well ask: 
What remedies are available through the courts? Though the 
German courts do act to some degree as guardians of the 
constitution, Germany's want of antidiscrimination legislation 
leaves them poorly armed to remedy a pattern and practice of 
religious intolerance that has soaked into the bureaucratic 
culture. By contrast, due to the efforts of Congress, we are 
fortunate in the United States to enjoy strong 
antidiscrimination laws. When Deutsche Bank in New York fired 
an employee solely because of her membership in the Scientology 
religion, she was able to obtain not only financial 
compensation, but to extract an apology from the bank. In 
Germany, no comparable remedy would have been possible against 
Deutsche Bank.
    In Germany schools today, children are taught, by order of 
the government, that members of certain religions are evil. I 
have seen some of the so-called teaching materials that are 
used. They are highly offensive and calculated to breed 
intolerance and hate. On a personal note, I receive a lot of 
letters from people in Germany who watch JAG, the TV series in 
which I play a U.S. Marine Corps attorney. I would hate to 
think that due to reaching such hateful propaganda, they might 
be made to think less of the program or of me.
    Nor is discrimination in Germany a problem only for 
Scientologists. Mormons, Charismatic Christians, Jehovah's 
Witnesses, Orthodox Jews and others also suffer a climate of 
religious intolerance in Germany. Officials of both state and 
Federal Governments here continue to discriminate against 
thousands of law-abiding members of minority religions, many of 
them American in origin.
    It is unfortunate that the German ambassador has chosen not 
to appear today. It is my understanding, Mr. Chairman, that the 
Ambassadors of Germany, France and Austria were all invited. I 
further understand that the German Government also refused to 
appear before the Commission for Security and Cooperation in 
Europe when it held a hearing into religious intolerance in 
September 1997. However, the Ambassador has not hesitated to 
discuss his government's position on Scientology with members 
of the press and with certain members of this Committee in 
private. It is my view and that of Anne Archer that the 
Ambassador's repeated refusal betrays the fact that there is 
neither defense nor justification for his government's 
position.
    Following the hearing on German official discrimination 
conducted by the Helsinki Commission in September 1997, the 
German Government said that it would deploy its foreign 
intelligence agency on U.S. soil to inform Americans about my 
religion. We have no way of knowing yet if this legally 
impermissible plan was carried out, but we hope not. Our point 
is that if German officials had a clean human rights record 
vis-a-vis minority religions such as mine, they would not shy 
away from the scrutiny of a public forum.
    As I have looked deeper into these issues and have studied 
the extent of the discrimination, I have become alarmed to 
learn that intolerance has been carried across the border from 
Germany into some other countries of Europe, notably, France. 
French officials have stigmatized members of 173 religious 
minorities, including the Baptists, as ``sects.'' The French 
Government has set up a special unit to ``fight against'' 
minority faiths, headed by an individual with a long history of 
intolerance who has described our precious First Amendment as 
``crazy.'' His self-professed goal is to legislate which 
religions a person may and may not believe.
    Today's growing religious discrimination in Central Europe 
as spawned several years ago in Germany by the Kohl 
administration. Unfortunately, the government of Chancellor 
Schroeder has taken no steps to reverse those divisive policies 
and propagate religious freedom and pluralism. Forums such as 
today's are essential to drive home that we will not only speak 
out against these governmental abuses, but take firm action 
against them. The resolutions in Congress--H.R. 388 and S. 
230--deserve the full support of this Committee. And given the 
spread of religious intolerance to other European countries, I 
believe a resolution is needed calling upon countries such as 
France, Austria and Belgium to respect international human 
rights laws, especially as regards religious freedom.
    I ask you, Mr. Chairman, to give serious consideration to a 
resolution of this kind in the near future.
    Chairman Gilman. Thank you, Ms. Bell, for your testimony.
    Ms. Bell. I have a little bit more.
    Chairman Gilman. Yes, please sum up.
    Ms. Bell. While we continue to speak out, of course, we 
must keep open the doors to a dialogue. Anne Archer and I share 
the desire of many here today to bring the Governments of 
Germany and France to the discussion table, and persuade them 
to open a genuine dialogue with the minority religions whose 
members worship in those lands. In the end, only dialogue can 
resolve this problem.
    Mr. Chairman, Members of the Committee, thank you.
    [The prepared statement of Ms. Bell appears in the 
appendix.]
    Chairman Gilman. Thank you, Ms. Bell, for being here and 
for your testimony and for your requests which we will honor 
and take a good, hard look at.
    Dr. Hunt, you are back with us again. We apologize for the 
interruption which is something that was beyond our control but 
we hope that you can give us your testimony now.
    Dr. Hunt, please proceed.
    Reverend Hunt [continuing]. Thank you. I will continue 
where I left off.
    It is my experience that even though Methodists are a 
state-recognized religion, they do not live free from official 
and unofficial bias. I have encountered this in trying to book 
hotel rooms for church retreats, notably being told by the 
private owners of certain small hotels that they would not 
engage having a sect in their hotel. In a more official and 
larger hotel, it was possible to book rooms for our church 
retreat, but only after demonstrating that we were a state-
recognized religion; and I cannot say that the same hotel would 
have rented rooms to a nonrecognized religion.
    I have also encountered problems, as I say, in my statement 
in making visits to different prisons. In one case, I was 
simply turned down and told that I must be part of the Catholic 
group, Caritas. In another case, I had to get permission from 
the Roman Catholic chaplain first. I would not generalize here; 
I have been given access to other prisons.
    Another type of bias has been reported to me by other 
members. In one case, a member of our church felt that the 
judge in a child custody case, as well as a court-appointed 
psychologist, showed prejudice against him by referring to him 
as a fundamentalist and a member of a sect because he was a 
Methodist. Apparently, they were not aware that ours is a 
state-recognized religion.
    In another case, the member was surprised to find that if, 
as a divorcee, he married a Roman Catholic religious 
instruction teacher, she would lose her job. Although her 
education and salary are paid by the state, if she wishes to 
remain employed, her right to marry, and thus his, hinges on a 
Roman Catholic marriage tribunal and, presumably, a priest's 
approval of her future spouse. Such a situation can hardly fail 
to be coercive. It puts the resources of the state at the 
disposal of a religious group purely for the enforcement of its 
own idiosyncratic beliefs.
    The problem of bias is unfortunately rooted in Austrian 
law. At a symbolic level, it is telling that the Austrian 
courts still display prominently a crucifix, a symbol hardly 
calculated to inspire confidence by non-Catholics in an 
unbiased judicial system.
    The Austrian Government distributes a document entitled, in 
English translation, ``Sects, Knowledge Protects,'' which 
attempts to define religion and then distinguishes between 
three types of religious groups. Some are able to obtain legal 
entity status. Others are given legal recognition as churches 
whose activities are in the public interest and, thus, receive 
public support, and then there are groups regarded as dangerous 
sects.
    One cannot escape the effect of this official bias by 
simply keeping one's religious identity secret. Every resident 
of Austria must declare their religion on a Meldezettle, or 
required residency registration, with the police, and you must 
present a copy of this for every activity from signing a 
housing lease to opening a bank account to even purchasing a 
mobile telephone. So you cannot keep your religion private, and 
you cannot keep it private in an unbiased environment.
    I would just add quickly here that the United Methodist 
Church of Austria in its annual conference last week adopted a 
short statement on the book ``Sects, Knowledge Protects'' and I 
will just read it for you in English translation.
    ``We strongly disagree with the law and office being set up 
by the Austrian Government for documentation of sects and their 
activities. We do not see any need to do this. If illegal 
action is taking place, existing criminal law, civil law and 
consumers rights should be called on to correct it. We 
challenge the majority churches to clarify their position on 
these matters.''
    And if I can add just one other thing, Congresswoman Lee 
was interested in whether there was a relationship between 
religious freedom and discrimination against ethnic and racial 
minorities. I would just have to say, my congregation is one-
third African one-third Asian, and one-third European and 
American. And several times privately people have characterized 
us as a sect based on the large number of African members of 
the church; and in one case--again, in trying to rent rooms for 
our church--we were told, we know that all those Africans must 
be sect members. So there is a link here in Austria between 
these two things.
    In closing, let me just say I am not unhappy to live and 
minister in Austria as an American and a Methodist. The 
majority of my relationships with Austrian society are happy 
and positive, and yet I don't think there can be any apathy on 
this issue. No country is so far along in its social evolution 
that it cannot, given the right circumstances, revert to 
religious bigotry and intolerance. And our commitment to 
freedom requires us a continual and disciplined self-
examination and honest appraisal of our friends.
    I want to thank the Committee Members. I want to thank you, 
Mr. Chairman, for this opportunity. Thank you.
    [The prepared statement of Reverend Hunt appears in the 
appendix.]
    Chairman Gilman. Thank you, Dr. Hunt, and again we 
apologize for the interruption. We hope you can stand by for 
questions of the panelists and possibly questions of yourself.
    Will you be able to do that?
    Reverend Hunt. Yes, I will.
    Chairman Gilman. We will now proceed with questions by our 
colleagues of our panelists, and we will start with Mr. Salmon.
    Mr. Salmon. Thank you, Mr. Chairman. I am going to start my 
first question with Mr. Jensen.
    I am just curious. Have you considered a lawsuit?
    Mr. Jensen. Congressman Salmon, the answer is, yes, I have 
considered a lawsuit. I would prefer to use communication, 
diplomacy, speaking out here at Congress, rather than going to 
court. That is my personal view.
    If these methods don't work, then I would consider pursuing 
that course of action.
    Mr. Salmon. It is really interesting, about 3 years ago we 
were able to get this same resolution that you have alluded to, 
Ms. Bell, the resolution that I have cosponsored with 
Representative Payne, we were able to actually get it out of 
this Committee, got it to the floor and there was so much 
confusion and misunderstanding about what exactly we were 
trying to accomplish and there was a lot of really anti, I 
think, or very discriminatory rhetoric that came from Members 
on the House floor, as I listened to them talk about 
Scientology, the Church of Scientology in particular.
    And one of the concerns that has been raised--and Mr. 
Jensen, I kind of privately talked to you about this the other 
day--is information that has been sent to virtually every 
Member of this Committee from the Lisa McPherson Trust, and I 
mentioned to you I was going to ask that question. You are 
familiar with what this trust is all about.
    Do you have any thoughts on some of the allegations that 
have been raised by this group, and if so, what are they?
    Mr. Jensen. Congressman, contrary to its characterization 
as a foundation, the Lisa McPherson Trust is a profit-making 
body, and all the charges brought in their case were dismissed 
recently. That has been covered in the newspapers in the last 
few days.
    Mr. Salmon. So all of the charges or all of the allegations 
that they have made have been dropped?
    Mr. Jensen. That's correct, dismissed by the court.
    Mr. Salmon. OK.
    I think the other point that I would like to make is that 
my personal feeling when people within religions do things that 
are unseemly, or even illegal, to me, the recourse that we have 
in this country is not to stomp on the religion, it is to 
prosecute the bad actors within the religion; and virtually 
every religion that I know of has had problems. Ecclesiastical 
leaders in virtually every religion have done things that 
offend people, and some have done things that we consider to be 
illegal in this country; and our course of action in this 
country has always been, when people do things that violate the 
law, they are prosecuted, and there is justice within our court 
system. But the answer has never been and should never be in a 
free society that respects freedom of religion to paint with a 
broad brush, and then use that as a reason for discrimination.
    I am just curious, do you have any thoughts?
    Mr. Jensen. I agree completely, Congressman, and I 
particularly agree with the comment made earlier by one of your 
colleagues that people should be judged on their actions and 
not on their thoughts. In this country, we cherish the freedom 
to believe as we choose, and whether someone disagrees with 
your particular beliefs or not, a good American will die for 
your right to believe in what you choose.
    The Germans don't share that view. They are a very young 
democracy and the stench of religious intolerance there is at a 
high point today. I believe that the problem in part stems from 
the collapse of church and state in Germany, something we are 
not familiar with and have never experienced in this country. 
When you put a member of one religion or one belief system in a 
position of power within the government, an abuse is bound to 
occur. So I don't think it is really a problem of one religion 
versus another, or anybody actually doing anything wrong, but 
rather a conflict of beliefs that is backed up with the power 
of government.
    Mr. Salmon. Thank you.
    Dr. Gunn, you have spoken about some of the problems that 
you have seen firsthand throughout various countries in Europe. 
I am just interested in your thoughts on, as a U.S. Government, 
what do you see as recourse that we could possibly pursue?
    Mr. Gunn. I think that one of the important problems the 
United States has in Europe is that there is often an immediate 
reaction to statements, recommendations by the U.S. Government. 
So sometimes those harsh statements actually play into the 
rhetoric of those who are--who support the antisect movements. 
So I would urge strong diplomacy, but also clear words to make 
clear what is happening.
    I think with the case you mentioned earlier, with the 
United States Trade Representative, I believe that is one that 
should be pursued vigorously and the United States should be 
prepared to say that the action taken against Scientologists in 
Germany is a barrier to trade and in violation of the WTO.
    Mr. Salmon. I agree Dr. Gunn.
    One last point: Do you share the optimism that things are 
getting better that was given to us by Ambassador Seiple?
    Mr. Gunn. I think it is a mixed story. I would have said it 
differently.
    I believe there are some signs for optimism. I don't think 
it is right over the horizon.
    Let me say something positive about Germany. I think that 
in many regards the kind of problem we are talking about has 
diminished significantly in Germany. A wide range of groups 
were subject to the same type of discrimination that 
Scientologists have been going through during the last year. 
That has been moderated to some extent in Germany, partially 
through the release of the Enquete Commission report, which 
backtracked significantly over what it had said before; and 
that the German Parliamentary Commission concluded--said, 
first, that the word ``sect'' should not be said to describe 
them, which is an advance. And they also said that these groups 
are not, per se, dangerous and they should be treated on a 
case-by-case basis. That is an extremely positive step.
    That said, there continues to be the kind of problem we 
have heard described today.
    Mr. Salmon. This list of 176, I am not sure if that is the 
correct number, but this list that was created, what is the 
status of that? Is it something that the government uses to 
constantly monitor, or is it something that pretty much has 
gone by the wayside?
    Mr. Gunn. In France, there is a list of--sometimes it is 
called 172 and sometimes it is 173, and that has to do with how 
the list was prepared; but that is from France. The government 
as an official institution does not necessarily use that. The 
Interministerial Mission Against Sects constantly refers to 
that list. They also say that that list is not an exhaustive 
list, so that there are other groups that could be pursued as 
well.
    French courts--when there have been cases where the 
prosecutors have used that list, French courts have, as far as 
I know, consistently said that list does not constitute the 
basis for any governmental action. So it was in a parliamentary 
report; it is not a legal document in that way in France.
    Chairman Gilman. The gentleman's time has expired.
    Mr. Ackerman.
    Mr. Ackerman. Thank you, Mr. Chairman.
    For purposes of clarification, I am sure that Congressman 
Salmon said that churches should get rid of their bad actors; 
that was not an artistic reference in any way, shape or form.
    Let me welcome the panel and thank you all for your 
testimony. If I could be parochial for one moment, Mr. 
Chairman, I would like to personally welcome Reverend L'Heureux 
from my hometown of Queens, New York City, and thank him for 
the great work that he does year round for all people, and the 
inclusiveness and the moral leadership that he exerts; and 
especially for referencing the birthplace of religious freedom, 
where I grew up, in Flushing, New York, and the work of John 
Bowne--and the Bowne House on that one block, it should be 
noted.
    Not only do we still have that active Quaker Meeting house, 
but we have an African church, we have two churches of 
different Christian denominations, one Orthodox synagogue, one 
Islamic mosque and three Buddhist temples; and that is within a 
very short--maybe three-quarters of a mile, all on that one 
street.
    I call to the Chairman's attention that when we were on a 
CODEL and we were in Germany, the Chairman did forcefully bring 
this issue up with various members of the government in Germany 
and was very forceful about the opinion of most of us on this 
Committee, I believe, and what we thought was in America's best 
interests and the interests of fairness and religious freedom 
and tolerance in America. We made our points. I don't know that 
we scored any victory at all, but they know that some of us, at 
least, are focused on it.
    I think the testimony that we have heard here has to be 
highlighted and profiled. I am not sure what you do besides 
being here today, which is very important. Maybe you have to 
try to garner the attention and support of the labor movement 
in this country, which seems recently to have a powerful 
interest in religious freedom in other countries. Maybe we can 
condition our trade relationship with other countries on this, 
whether we give them permanent normal trade status; or maybe 
you can just get yourself in more trouble in China. That seems 
to get a lot of attention.
    One of the things that the officials in Germany were using 
to make whatever points they thought they were making was that 
this particular religion of which we speak today, Scientology, 
in their view was not a religion and was just basically a Ponzi 
scheme to take money from unsuspecting people. We argued that.
    But how do you respond to that? Anybody on the panel, maybe 
Mr. Jensen.
    Mr. Jensen. Congressman, I think ``my lady doth protest too 
much'' when the Germans say there's a Ponzi scheme or something 
like that. In Germany, they don't have religious freedom; they 
don't have separation of church and state. They have declared 
certain religions to be official state religions, and all 
others are referred to as sects or free churches; and my 
understanding is that ``free'' means, that religion or church 
is not controlled by the government.
    So I am not surprised that they would use such derogatory 
terms to refer to my church. Personally I am offended by it.
    It is nothing new. This sort of thing has been going on in 
Germany a long time. I have been losing sales and contracts in 
Germany for 10 or 11 years simply because I am a member of a 
minority religion and no one makes any bones about it. They 
boast of the fact. They use sect filters. I have a whole 
binder, full of documents, here--and there is a sample of one 
over on the board there--which require you to declare that you 
are not only not a member of the Church of Scientology but you 
have never even read a book by L. Ron Hubbard.
    Now I can't see anything so offensive about reading a book. 
Why should that be a disqualification for employment or 
participation in the electoral process?
    Mr. Ackerman. I thought we were past the time where, in 
Germany, we had problems with books.
    But nonetheless, I strongly agree with you and recall that 
this country was founded by people who seemed strange to other 
people, no matter from whence they came. We were really founded 
by the weirdos and whackos of the world in the view of the 
majorities in other places.
    My district, I guess they still have a tendency to elect 
those people to public office. But it becomes a very dangerous 
game when we try to define on any particular basis where 
people, by virtue of their free will, want to associate and 
consider themselves as a religion. Who is to judge that they 
are not? I mean, there are some pretty strange practices. There 
are some groups that wear beanies and won't turn the lights on 
on Friday nights when it gets dark. That does not mean that my 
religion is not a legitimate religion, no matter how strange 
that might seem to others.
    So I just want to thank the panel for your persistence and 
know that you have many member friends here.
    Reverend L'Heureux. Congressman, may I comment on your 
question?
    The question initially was in terms of the accusation of 
financial improprieties in a Ponzi scheme for wealth 
acquisition. In different forms, but with equal virulence, the 
same accusations have been made in history against almost every 
major religious group.
    In my own lifetime, I can remember hearing that kind of 
bigotry espoused against the Roman Catholic church. The 
slanderous and anti-Semitic remarks regarding Jewish wealth, 
for example, fall within that category. It is an easy way to 
hook bigotry in a way that will target it against some other 
group and marginalize them.
    I wish that our celebration of American religious freedom 
were so complete and universal, but alas it is not because we 
have had difficulties here, many of them historic, occasionally 
present.
    One of the tragedies that I see in this current environment 
is that much of the antisect movement in Europe--France and 
Germany, that I am familiar with personally in particular--
arises because of the work, for the last four decades here, of 
the American anticult movement. It has been rendered 
economically deficient in this country by legal judgments that 
have bankrupted the cult awareness network and one of their 
leading kidnapper deprogrammers.
    And now I believe, much like the tobacco industry, they are 
taking their product and exporting it elsewhere for their own 
benefit. And the relationship between Alain Vivien, in 
particular, with American anticult groups is rather interesting 
considering that he, along with other officials, will denounce 
what the American Government might say about France, but 
welcome what this group of anticultists would say.
    Chairman Gilman. Thank you, Reverend L'Heureux, and thank 
you, Mr. Ackerman.
    The gentleman from Illinois, Mr. Manzullo.
    Mr. Manzullo. Thank you very much. I would like to center 
on the trade aspects of this situation, because unfortunately 
there is not much that can be done legally. When a country is 
discriminating against members of certain religions, it becomes 
a sovereignty issue; but when it becomes a trade issue that 
results in harm to American companies, then it does become our 
legal obligation to get involved.
    Mr. Jensen, you stated in the last 8 to 10 years that you 
were losing sales and contracts as a result of discrimination 
against you because of your beliefs. Do you recall the 
testimony of Ambassador Seiple, who said that Commerce has not 
been able to quantify the harm or injury of any and therefore 
elevate this complaint to that of requesting the panel?
    I note with great, total disbelief the statement, the 
official statement from the German Government who was invited 
to appear here, but declined and sent a communique. It said 
recent assertions about German Government measures concern a 
small area of public procurement, specifically the awarding of 
government contracts for staff and management training. They 
are not focused on membership in Scientology, but are instead 
designed to ensure that techniques which seek to 
psychologically manipulate or oppress individuals are not used 
for training or consulting purposes. The measures are limited 
to government contracts. There are no regulations affecting 
bidding for private sector contracts.
    I guess, therefore, if you are a Scientologist in Germany 
and you follow the reason of this letter, you can 
psychologically manipulate or oppress as long as it doesn't 
involve governmental contracts. This is written by a diplomat.
    And I was just discussing with Congresswoman Ros-Lehtinen--
and she is the chairwoman of the Subcommittee on Trade and 
International Economic Policy of this Committee, and we are 
very much interested in seeing if you can quantify--can you 
tell us if you can document loss of contracts based on this 
present policy of Germany?
    Mr. Jensen. Yes, Congressman.
    Mr. Manzullo. Or other companies, as well, based upon your 
religious beliefs?
    Mr. Jensen. Yes, Congressman Manzullo, I can document that. 
I will be happy to provide that to the Committee.
    Chairman Gilman. If you can provide that to the Committee, 
we will make it part of the record.
    [The information referred to appears in the appendix.]
    Mr. Manzullo. I presume it would be proprietary for you to 
go into detail as to each contract and each loss, or is there 
something that you wish to share generally?
    Mr. Jensen. In some cases it is not difficult at all. A 
communication from Volkswagen, for instance, saying that they 
not only will refuse to honor our contract, but demand a refund 
for all purchases of software they had ever made because of the 
fact that I am a Scientologist. I told them I would be happy to 
comply if they would put that in writing, at which point they 
settled for a cessation of business and forgot about demanding 
the refund.
     There are other cases more recent.
    Mr. Manzullo. Were there any American-based companies that 
were there, or branches rather?
    Mr. Jensen. Daimler Chrysler is one. We have a copy of 
their sect filter up on the wall there. There have been others, 
such as the Ford Motor Company, GE Capital, and another company 
here in the United States, that do business in Europe, have 
ordered their German subsidiaries to stop using the sect 
filters and have written to us that they have stopped doing 
that.
    But when it comes to my own personal situation, the 
discrimination I referred to earlier was just on my own 
products, and that might come to millions of dollars worth of 
losses. I am not sure exactly what I could document in Germany. 
But today, with this Microsoft situation, the German Government 
is threatening to boycott or put a ban on the Microsoft Windows 
2000 operating system because of my involvement as a 
Scientologist.
    Now, that, according to studies on the benefits of 
migrating to Windows 2000, would be a $50 billion hit on the 
German economy, simply because of the inefficiency of systems 
they would have to use instead.
    So, yes, I can supply numbers; yes, I can supply 
documentation, but you would also have to look beyond a 
specific transaction toward the chilling effect on business, as 
well as one's personal life.
    What will happen the next time Microsoft needs a component 
in their operating system? And I have been a terrific supplier 
for them. For 7 years now, we have done business well together, 
but someone sitting around that table in the future is going to 
say, well, remember we had this problem with the Scientology 
issue.
    Mr. Manzullo. We look forward to meeting with you. I know 
there are several members on this panel that would like to meet 
personally with you and go into great depth as to the harm it 
has given to your company.
    Chairman Gilman. Thank you, Mr. Manzullo.
    I now call on our distinguished subcommittee chairman on 
economic policy and trade, the Congresswoman from Florida, Ms. 
Ros-Lehtinen.
    Ms. Ros-Lehtinen. Thank you so much, Mr. Chairman; and 
following on Mr. Manzullo's remarks, in our trade subcommittee 
we would look forward to the opportunity to discuss the issue 
of sect filters and what has been happening with discriminatory 
trade practices in Germany, France or other countries. And so 
we look forward to getting that information from you, Mr. 
Jensen.
    I had the opportunity to meet with you and some of the 
others in the panel yesterday afternoon, and we look forward to 
following up on that to see if our trade subcommittee could 
help you in any way, at least highlight this issue of 
discrimination against those who hold religious views that are 
not popular or in accordance with the majority-held beliefs. 
And certainly in this country, that was founded upon religious 
freedom, we would frown on such practices; but especially when 
they interfere with commerce in a manner which is, on the face 
of it, very discriminatory.
    So we look forward to getting that information from you.
    And I know that as the other panelists were talking, Ms. 
Bell was writing some notes, so I don't know if you wanted the 
opportunity to say something. I think when Mr. Ackerman was 
asking a question of some of the other panelists, you looked 
like you wanted to say something.
    Ms. Bell. I did, and most of it was actually said by 
Congressman Ackerman, but the one thing that I wanted to point 
out is, he was talking about the Germans saying that they 
didn't think Scientology was a religion, but I wanted to point 
out the fact that Scientology has been recognized as a religion 
by all of the world, by the U.S. Government, by Australia, New 
Zealand, South Africa, recently Sweden. So it has been 
recognized as a religion.
    And again, it goes back to what Congressman Ackerman was 
saying, that it is really not the place of the state or the 
government to decide whether it not it is a religion; and 
again, the bottom line is that the freedom to practice your own 
beliefs whether or not they agree with it, or think it is a 
religion or whatever, you should have freedom and the ability 
to practice what you believe, especially by a country that 
claims to be democratic.
    Ms. Ros-Lehtinen. That is interesting that many of those 
statements were not echoed during the South Carolina primaries, 
as some candidates visited Bob Jones University. It is like 
``Animal Farm,'' all animals are equal, just some are more 
equal than others. But I do not espouse those beliefs of Bob 
Jones University, but perhaps some of those folks who make 
those statements about religious freedom would apply it 
overall.
    Mr. Chairman, thank you for the opportunity and thank you 
for an excellent presentation. We look forward to working with 
them in our trade subcommittee to see how we could be of help.
    Chairman Gilman. Thank you, Chairman Ros-Lehtinen.
    Mr. Rogan, the gentleman from California.
    Mr. Rogan. Thank you, Mr. Chairman. Let me just say I am 
sorry I missed your hearing. I am also running off to a hearing 
about human rights in Afghanistan.
    Let me just say for the record, we expect more of Western 
Europe than we do of Afghanistan. We expect more of Western 
Europe than we do of totalitarian societies; and the fact that 
there are still some of the issues that you have raised today--
and I know about the issues that you are talking about and will 
read your testimony.
    It is outrageous that countries as educated and as 
industrialized and as democratic--supposedly democratic--are 
participating in the kinds of discrimination that we find in 
these countries; and the United States should be this squeaky 
wheel when it comes to the violation of these people's rights, 
because we are talking to other countries that supposedly stand 
for this higher standard.
    And I appreciate your leadership, Mr. Chairman, in calling 
this hearing. Thank you very much.
    Chairman Gilman. Thank you, Mr. Rogan, for joining us. I 
have just a few brief questions.
    Dr. Hunt, you have been so patient. Allow me to ask you a 
question. Do you see a linkage between the antisect movement 
and the rise of political extremism in Austria, in France, 
Germany and Belgium? And I address that to any panelist that 
may want to respond.
    Dr. Hunt.
    Reverend Hunt. I am not certain about the other countries. 
I think in Austria there is certainly a link. The recent 
political campaign which featured prominently images of real 
Austrians as opposed to, apparently, not real Austrians is 
certainly based on a climate that tries to characterize the 
kind of Germanic Catholic personality as being truly Austrian 
and all others as being not really quite Austrian; and I think 
that kind of political extremism and nationalism is certainly 
related to the rise of actions against sects.
    Chairman Gilman. Any of our other panelists?
    Mr. Brumley.
    Mr. Brumley. I would concur with the thought that there is 
a linkage. The situation in Europe reminds me of a sad chapter 
in our country in the McCarthy era where one was accused of 
being a Communist without any facts. He had to go through 
infinite details to prove a negative that he was, in fact, not 
a Communist.
    Well, the sect commissions have done--they are essentially 
doing the very same thing, based on unsubstantiated reports, 
unfounded prejudices. They stigmatize somewhat.
    Jehovah's Witnesses have found that, for example, during 
the audit of our operations in France, we came out squeaky 
clean. They found no impropriety whatsoever, even though they 
were certainly looking for it. But we feel subjected to that 
same type of scrutiny, that we have to prove we are not a 
dangerous sect. Instead of assuming we are doing something 
correct, we found--and I know you understand this as well--our 
recourse has been through the courts. As we go through the 
court system in France and in Germany, we have typically won 
the decisions, but in this court of public opinion, in the 
press, this stigmatization continues.
    Chairman Gilman. Does any other panelist wish to comment?
    Reverend L'Heureux.
    Reverend L'Heureux. Just a brief comment to echo what was 
said a second ago in terms of the role of government not to be 
a definer of what is orthodox or correct in belief.
    Moments before this Committee hearing convened this 
morning, I understand that the government in Paris conducted 
yet another raid on the offices of the Church of Scientology 
there. In a series of raids that have removed computer disk 
drives and records, and appear some weeks later to return them 
with no particular charges being filed, no reason given as to 
why the raids occur; and this kind of pattern of brutal 
harassment is really evidence of a kind of a totalitarian 
aggression against religious movements.
    Chairman Gilman. Thank you. Does any other panelist wish to 
comment?
    If not, let me ask Reverend L'Heureux and Dr. Gunn, what 
should our government do to deal with the situation in France? 
Any suggestions?
    Reverend L'Heureux.
    Reverend L'Heureux. Well, to speak out loudly and a little 
bit more loudly than we have been doing. I recognize the 
problem that has been stated many times here, that sometimes 
the official statement of the government is not well received 
in Europe, and France and Germany in particular, as an 
intrusion into their sovereignty. But the issue needs to be 
raised. Silence often gives consent to the kind of misconduct 
that we have chronicled this morning. There is no way for us to 
avoid the responsibility of being forthright.
    The other is to avoid in every way possible participating 
in a division that the antisect, anticult people would want us 
to do to sort of throw away certain groups and allow them to be 
trampled, because somehow they have been stigmatized or 
demonized as not religions. Again, the test is that government 
is simply not qualified to make a determination of orthodoxy.
    The behavior standards that were mentioned are correct. If 
there are crimes committed, if there are misdeeds done by 
individuals, they need to be called to account. If, in fact, 
there is some kind of a criminal conspiracy in a way that is 
detrimental to the society and in violation of the laws, 
certainly that ought to be prosecuted.
    That is not what we are dealing with here. What we are 
dealing with is the vague innuendo that leads to blacklisting, 
that leads to loss of employment, that leads to loss of 
schooling, that leads to loss of child custody; and these acts 
are intolerable, and we must denounce them.
    Chairman Gilman. We thank you, Dr. L'Heureux.
    Dr. Gunn, did you want to answer?
    Mr. Gunn. It is very difficult in France. The 
Interministerial Mission Against Sects frequently employs anti-
American rhetoric in order to justify its position, thinking 
that that plays well in France. So sometimes strong statements 
by the United States can backfire.
    France has a lively tradition of intellectual dissent, and 
it has a lively tradition of trying to bring down people who 
promote intolerance. I believe that there has been, during the 
last year, a rise in those particular groups, and I assume 
those are the people to whom Ambassador Seiple was referring. 
Two very famous French historians have taken positions on this. 
The leading French scholar has now taken a position. Some 
important French journalists have taken a position on this. 
They are still voices in the wilderness.
    The kind of thing I think the United States could do to 
help would be to encourage those sorts of voices to be more 
pronounced in what they are doing, whether it is including 
American academics to deal with their colleagues abroad, or 
American religions to deal with their coreligion abroad, to let 
them know what the consequences are of discrimination.
    Chairman Gilman. Thank you very much.
    Would any of the other panelists care to add any thoughts 
before we conclude?
    Mr. Brumley.
    Mr. Brumley. Just to say that this fall is pivotal for 
Jehovah's Witnesses. We have a case pending before the Council 
of State in France and another case pending in Germany. Both 
decisions should be handed down this fall. This is certainly a 
time to be watchful to see what France and Germany will do. If 
they hand down favorable decisions, then the optimism espoused 
by Ambassador Seiple would be well justified. An adverse 
decision certainly brings down a black curtain.
    Chairman Gilman. Thank you very much. Did you care to say 
something Mr. Jensen?
    Mr. Jensen. Yes. I would just like to urge the Committee 
and all the Members of Congress to support H.R. 388 and S. 230.
    Chairman Gilman. We will certainly give a lot of attention 
to it.
    I can't thank the panelists enough, Reverend Hunt, for your 
being with us in Vienna. We wish we were there with you for the 
moment; I hope your weather is good.
    And thank you all for taking part. Catherine, Mr. Jensen, 
Mr. Brumley, Reverend L'Heureux and Dr. Gunn, thank you for 
joining us, and Committee stands adjourned.
    [Whereupon, at 1:15 p.m., the Committee was adjourned to 
reconvene at the call of the Chair.]
      
=======================================================================




                            A P P E N D I X

                             June 14, 2000

=======================================================================

      
    [GRAPHIC] [TIFF OMITTED] T8022.001
    
    [GRAPHIC] [TIFF OMITTED] T8022.002
    
    [GRAPHIC] [TIFF OMITTED] T8022.003
    
    [GRAPHIC] [TIFF OMITTED] T8022.004
    
    [GRAPHIC] [TIFF OMITTED] T8022.005
    
    [GRAPHIC] [TIFF OMITTED] T8022.006
    
    [GRAPHIC] [TIFF OMITTED] T8022.007
    
    [GRAPHIC] [TIFF OMITTED] T8022.008
    
    [GRAPHIC] [TIFF OMITTED] T8022.009
    
    [GRAPHIC] [TIFF OMITTED] T8022.010
    
    [GRAPHIC] [TIFF OMITTED] T8022.011
    
    [GRAPHIC] [TIFF OMITTED] T8022.012
    
    [GRAPHIC] [TIFF OMITTED] T8022.013
    
    [GRAPHIC] [TIFF OMITTED] T8022.014
    
    [GRAPHIC] [TIFF OMITTED] T8022.015
    
    [GRAPHIC] [TIFF OMITTED] T8022.016
    
    [GRAPHIC] [TIFF OMITTED] T8022.017
    
    [GRAPHIC] [TIFF OMITTED] T8022.018
    
    [GRAPHIC] [TIFF OMITTED] T8022.019
    
    [GRAPHIC] [TIFF OMITTED] T8022.020
    
    [GRAPHIC] [TIFF OMITTED] T8022.021
    
    [GRAPHIC] [TIFF OMITTED] T8022.022
    
    [GRAPHIC] [TIFF OMITTED] T8022.023
    
    [GRAPHIC] [TIFF OMITTED] T8022.024
    
    [GRAPHIC] [TIFF OMITTED] T8022.025
    
    [GRAPHIC] [TIFF OMITTED] T8022.026
    
    [GRAPHIC] [TIFF OMITTED] T8022.027
    
    [GRAPHIC] [TIFF OMITTED] T8022.028
    
    [GRAPHIC] [TIFF OMITTED] T8022.029
    
    [GRAPHIC] [TIFF OMITTED] T8022.030
    
    [GRAPHIC] [TIFF OMITTED] T8022.031
    
    [GRAPHIC] [TIFF OMITTED] T8022.032
    
    [GRAPHIC] [TIFF OMITTED] T8022.033
    
    [GRAPHIC] [TIFF OMITTED] T8022.034
    
    [GRAPHIC] [TIFF OMITTED] T8022.035
    
    [GRAPHIC] [TIFF OMITTED] T8022.036
    
    [GRAPHIC] [TIFF OMITTED] T8022.037
    
    [GRAPHIC] [TIFF OMITTED] T8022.038
    
    [GRAPHIC] [TIFF OMITTED] T8022.039
    
    [GRAPHIC] [TIFF OMITTED] T8022.040
    
    [GRAPHIC] [TIFF OMITTED] T8022.041
    
    [GRAPHIC] [TIFF OMITTED] T8022.042
    
    [GRAPHIC] [TIFF OMITTED] T8022.043
    
    [GRAPHIC] [TIFF OMITTED] T8022.044
    
    [GRAPHIC] [TIFF OMITTED] T8022.045
    
    [GRAPHIC] [TIFF OMITTED] T8022.046
    
    [GRAPHIC] [TIFF OMITTED] T8022.047
    
    [GRAPHIC] [TIFF OMITTED] T8022.048
    
    [GRAPHIC] [TIFF OMITTED] T8022.049
    
    [GRAPHIC] [TIFF OMITTED] T8022.050
    
    [GRAPHIC] [TIFF OMITTED] T8022.051
    
    [GRAPHIC] [TIFF OMITTED] T8022.052
    
    [GRAPHIC] [TIFF OMITTED] T8022.053
    
    [GRAPHIC] [TIFF OMITTED] T8022.054
    
    [GRAPHIC] [TIFF OMITTED] T8022.055
    
    [GRAPHIC] [TIFF OMITTED] T8022.056
    
    [GRAPHIC] [TIFF OMITTED] T8022.057
    
    [GRAPHIC] [TIFF OMITTED] T8022.058
    
    [GRAPHIC] [TIFF OMITTED] T8022.059
    
    [GRAPHIC] [TIFF OMITTED] T8022.060
    
    [GRAPHIC] [TIFF OMITTED] T8022.061
    
    [GRAPHIC] [TIFF OMITTED] T8022.062
    
    [GRAPHIC] [TIFF OMITTED] T8022.063
    
    [GRAPHIC] [TIFF OMITTED] T8022.064
    
    [GRAPHIC] [TIFF OMITTED] T8022.065
    
    [GRAPHIC] [TIFF OMITTED] T8022.066
    
    [GRAPHIC] [TIFF OMITTED] T8022.067
    
    [GRAPHIC] [TIFF OMITTED] T8022.068
    
    [GRAPHIC] [TIFF OMITTED] T8022.069
    
    [GRAPHIC] [TIFF OMITTED] T8022.070
    
    [GRAPHIC] [TIFF OMITTED] T8022.071
    
    [GRAPHIC] [TIFF OMITTED] T8022.072
    
    [GRAPHIC] [TIFF OMITTED] T8022.073
    
    [GRAPHIC] [TIFF OMITTED] T8022.074
    
    [GRAPHIC] [TIFF OMITTED] T8022.075
    
    [GRAPHIC] [TIFF OMITTED] T8022.076
    
    [GRAPHIC] [TIFF OMITTED] T8022.077
    
    [GRAPHIC] [TIFF OMITTED] T8022.078
    
    [GRAPHIC] [TIFF OMITTED] T8022.079
    
    [GRAPHIC] [TIFF OMITTED] T8022.080
    
    [GRAPHIC] [TIFF OMITTED] T8022.081
    
    [GRAPHIC] [TIFF OMITTED] T8022.082
    
    [GRAPHIC] [TIFF OMITTED] T8022.083
    
    [GRAPHIC] [TIFF OMITTED] T8022.084
    
    [GRAPHIC] [TIFF OMITTED] T8022.085
    
    [GRAPHIC] [TIFF OMITTED] T8022.086
    
    [GRAPHIC] [TIFF OMITTED] T8022.087
    
    [GRAPHIC] [TIFF OMITTED] T8022.088
    
    [GRAPHIC] [TIFF OMITTED] T8022.089
    
    [GRAPHIC] [TIFF OMITTED] T8022.090
    
    [GRAPHIC] [TIFF OMITTED] T8022.091
    
    [GRAPHIC] [TIFF OMITTED] T8022.092
    
    [GRAPHIC] [TIFF OMITTED] T8022.093
    
    [GRAPHIC] [TIFF OMITTED] T8022.094
    
    [GRAPHIC] [TIFF OMITTED] T8022.095
    
    [GRAPHIC] [TIFF OMITTED] T8022.096
    
    [GRAPHIC] [TIFF OMITTED] T8022.097
    
    [GRAPHIC] [TIFF OMITTED] T8022.098
    
    [GRAPHIC] [TIFF OMITTED] T8022.099
    
    [GRAPHIC] [TIFF OMITTED] T8022.100
    
    [GRAPHIC] [TIFF OMITTED] T8022.101
    
    [GRAPHIC] [TIFF OMITTED] T8022.102
    
    [GRAPHIC] [TIFF OMITTED] T8022.103
    
    [GRAPHIC] [TIFF OMITTED] T8022.104
    
    [GRAPHIC] [TIFF OMITTED] T8022.105
    
    [GRAPHIC] [TIFF OMITTED] T8022.106
    
    [GRAPHIC] [TIFF OMITTED] T8022.107
    
    [GRAPHIC] [TIFF OMITTED] T8022.108
    
    [GRAPHIC] [TIFF OMITTED] T8022.109
    
    [GRAPHIC] [TIFF OMITTED] T8022.110
    
    [GRAPHIC] [TIFF OMITTED] T8022.111
    
    [GRAPHIC] [TIFF OMITTED] T8022.112
    
    [GRAPHIC] [TIFF OMITTED] T8022.113
    
    [GRAPHIC] [TIFF OMITTED] T8022.114
    

</pre></body></html>
